<html>
<title> - [H.A.S.C. No. 112-9]FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








                          [H.A.S.C. No. 112-9]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

    BUDGET REQUEST FOR DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY 
                                PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 1, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                  U.S. GOVERNMENT PRINTING OFFICE

 65-109                   WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office http://bookstore.gpo.gov. For more information, contact the GPO 
Customer Contact Center, U.S. Government Printing Office. Phone 
202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>




           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHY CASTOR, Florida
DUNCAN HUNTER, California
                 Kevin Gates, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, March 1, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request for Department of Defense Science 
  and Technology Programs........................................     1

Appendix:

Tuesday, March 1, 2011...........................................    35
                              ----------                              

                         TUESDAY, MARCH 1, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
         DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Carr, Rear Adm. Nevin P., Jr., USN, Chief of Naval Research, U.S. 
  Navy...........................................................     6
Dugan, Dr. Regina E., Director, Defense Advanced Research 
  Projects Agency, U.S. Department of Defense....................    10
Freeman, Dr. Marilyn, Deputy Assistant Secretary of the Army for 
  Research and Technology, U.S. Army.............................     5
Lemnios, Hon. Zachary J., Assistant Secretary of Defense for 
  Research and Engineering, U.S. Department of Defense...........     3
Walker, Dr. Steven H., Deputy Assistant Secretary of the Air 
  Force for Science, Technology, and Engineering, Office of the 
  Assistant Secretary for Acquisition, U.S. Air Force............     8

                                APPENDIX

Prepared Statements:

    Carr, Rear Adm. Nevin P., Jr.................................    73
    Dugan, Dr. Regina E..........................................   110
    Freeman, Dr. Marilyn.........................................    60
    Langevin, Hon. James R.......................................    39
    Lemnios, Hon. Zachary J......................................    40
    Walker, Dr. Steven H.........................................    89

Documents Submitted for the Record:

    [There were no Documents submitted.]
Witness Responses to Questions Asked During the Hearing:

    Ms. Sanchez..................................................   145

Questions Submitted by Members Post Hearing:

    Mr. Johnson..................................................   157
    Mr. Langevin.................................................   151
    Ms. Sanchez..................................................   153
    Mr. Thornberry...............................................   149
 
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
         DEPARTMENT OF DEFENSE SCIENCE AND TECHNOLOGY PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                            Washington, DC, Tuesday, March 1, 2011.
    The subcommittee met, pursuant to call, at 3:05 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    Let me welcome Members and witnesses and guests to this 
hearing of the Emerging Threats and Capabilities Subcommittee 
on DOD's [the Department of Defense's] fiscal year 2012 budget 
request for science and technology programs.
    We are expected to have some votes shortly. My hope is we 
can at least get all the witness statements in before that time 
and hopefully beyond that. But in light of time constraints, I 
will certainly be brief.
    I think most of us would agree that the programs that are 
the subject of today's hearing are the future of the Department 
of Defense and, in many ways, of our country's security. And 
yet, with tight budgets, they are always in danger of being 
squeezed, because you often don't see the consequences of those 
reductions immediately. And so the temptation is always there 
to cut our future, and that, in my view, would be a dangerous 
thing.
    The administration's fiscal year 2012 request for the 
programs before us today is $12.2 billion. I understand if you 
look across the FYDP [Future Years Defense Plan], there is 
about a 2-percent increase in basic research. But across the 
FYDP, the rest of the accounts are essentially flat. I have 
some concerns about that. But it is important, I know, for all 
of us to keep the total budget in perspective. But that is an 
area we may want to explore more.
    Obviously, all of your written statements will be made part 
of the record. And I appreciate a number of the examples you 
have given us in those written statements. And we will explore 
more of those in questions.
    At this time, I would yield to the ranking member for any 
comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to express my thanks to all of our witnesses 
here today.
    Let me just say that I firmly believe that the continued 
strength of our Nation is reliant upon our ability to continue 
to lead the world in innovation and advanced research and 
development. From GPS [Global Positioning System] to the 
Internet, we are all aware of the benefits that investments in 
defense science and technology have had on our daily lives. But 
what is sometimes overlooked is the remarkable impact these 
programs have on our national economic and educational 
competitiveness, as well.
    Now, the goal of these programs is to invest in emerging 
science that will become the backbone of tomorrow's fighting 
force. To do this, however, the United States must maintain a 
strong research and development capability housed inside and 
outside of government by partnering with industry and academia.
    For example, 60 percent of the Department's basic research 
investment, $1.2 billion, goes directly to local universities 
to promote projects advancing knowledge and understanding 
across a wide array of fields, from advanced mathematics to 
environmental sciences. These programs not only have a vital 
national security benefit, but are a critical source of funding 
to keep the U.S. leading in the world in academic research and 
development. Similarly, the Department devotes the majority of 
its remaining science and technology budget to support defense 
laboratories and industry research efforts, as well.
    While much of these funds goes to support larger 
contractors and corporations, the Department also makes 
targeted investments in small businesses that specialize in 
specific high-technology research and development efforts. 
These smaller partners provide critical technology that is 
often too narrow and highly specialized for larger companies to 
consider.
    Because of their size, small high-tech companies can often 
complete specific research and development projects faster and 
more efficiently than larger contractors positioned to handle 
major large-scale programs. Now, these small businesses are 
excellent tools in achieving great efficiencies in the 
Department's science and technology efforts, and I certainly 
commend the Department for recognizing their importance.
    I have, however, been troubled that our efforts in Congress 
to authorize initiatives like the Small Business Innovation 
Research, or SBIR, Program and the Mentor-Protege Program have 
fallen, in many ways, by the wayside. With that in mind, I hope 
that our panel will address specific efforts to increase 
outreach and partner with academia and small businesses.
    With that, I would certainly look forward to hearing your 
testimony, and I want to thank our witnesses for being with us 
today.
    Thank you.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 39.]
    Mr. Thornberry. I thank the gentleman.
    We will now turn to our witnesses. We have the Honorable 
Zachary Lemnios, Assistant Secretary of Defense for Research 
and Engineering; we have Dr. Marilyn Freeman, Deputy Assistant 
Secretary of the Army for Research and Technology; Rear Admiral 
Nevin Carr, Chief of Naval Research; Dr. Stephen Walker, Deputy 
Assistant Secretary of the Air Force for Science, Technology, 
and Engineering; and Dr. Regina Dugan, Director of Defense 
Advanced Research Projects Agency, known as DARPA.
    Mr. Secretary, the floor is yours.

 STATEMENT OF THE HON. ZACHARY J. LEMNIOS, ASSISTANT SECRETARY 
  OF DEFENSE FOR RESEARCH AND ENGINEERING, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Lemnios. Good afternoon, Chairman Thornberry, 
Ranking Member Langevin, and committee members.
    I ask that my written testimony be entered into the record.
    Before I outline our plans for next year, it is important 
that I comment on the effects of the year-long continuing 
resolution or a reduction in the fiscal year 2011 budget 
request. To echo Secretary Gates, either of these scenarios 
would create a crisis in the Department, including the research 
and engineering enterprise.
    We need the funds in the fiscal year 2011 request for 
existing and planned programs to develop the capabilities our 
troops have simply asked for and to ensure that many of our 
small businesses who develop those capabilities in fact stay in 
business. Operating under a long CR [continuing resolution] or 
well below the President's fiscal year 2011 budget request puts 
both at risk and results in both the loss of valuable time and 
the ability to support our troops.
    As the Department's chief technology officer, I want to 
thank you for the opportunity to tell you about the important 
work that the dedicated men and women in the Department of 
Defense research and engineering enterprise perform every day 
to support our Nation's security.
    This enterprise encompasses a remarkable pool of talent and 
resources. Our footprint includes 67 Department laboratories 
dispersed across 22 States, with a total workforce of 60,000 
employees, 36,400 of which are degreed scientists and engineers 
who publish thousands of papers in peer-reviewed journals and 
keep the Department at the forefront of technology.
    We operate 10 federally funded research and development 
centers, 13 university-affiliated research centers, and 10 
information analysis centers across critical disciplines for 
the Department, supporting the combatant commanders in all 
disciplines.
    Their successes would not have been possible without 
Congress' help, and you have my heartfelt thanks for your 
steadfast support of our programs.
    We are in a period of remarkable change. Innovation, speed, 
and agility have taken on greater importance to our efforts, 
given globalized access to knowledge and to the rapid pace of 
technology development.
    In this environment, it is critical that we first operate 
with urgency to meet the immediate needs of our warfighters; 
that we prepare for the future by establishing the technical 
foundations for innovative, new capabilities for the 
operational missions described in the Quadrennial Defense 
Review and remain on a constant lookout for opportunities to 
create and avoid technology surprise; and to assure that we 
have the supply of science, technology, engineering, and 
mathematics capabilities across the Department.
    We are strategically shaping this enterprise to address 
these challenges. The Department's science and technology 
investments are well-coordinated, they are focused on high-
quality research efforts, and they are responsive to the 
current and future warfighter needs.
    The Department's research and engineering enterprise is 
structured around the following four imperatives:
    First, to accelerate the delivery of technical capabilities 
to win the current fight. We remain responsive to the urgent 
operational needs of our combatant commanders. For example, in 
Afghanistan, the Army's Research, Engineering, and Development 
Command leverages a network of science and technology teams and 
advisors to collect and distribute firsthand knowledge of 
warfighter needs across the Department. I have seen this, and I 
will tell you the result is remarkable.
    Second, we need to prepare for an uncertain future. In 
2010, we established the Department's Science and Technology 
Executive Committee, which I chair, which includes all of my 
colleagues here today. This committee identified seven priority 
areas for investments that would provide dominant technical 
advantage across the mission space for the near- and far-term 
needs of the Department. Our programs in basic research and 
technology watch have been restructured to ensure our 
scientists are involved early in potentially shaping disruptive 
emerging science areas to great advantage to the Department and 
to the Nation.
    Our third imperative is to reduce the cost, the acquisition 
time, and the risk of our major defense acquisition systems. 
Last year, the Department implemented new systems engineering 
policy and guidance to drive better technical performance for 
the Department's acquisition programs. This included the 
trusted defense system strategy to streamline, to update, and 
to apply program protection and supply-chain risk-management 
policy guidance and methods.
    And our fourth imperative is to develop world-class 
science, technology, engineering, and mathematics capabilities 
for the Department and for the Nation. We realize that our 
technical goals are only achievable with exceptional research 
and engineering talent. And our STEM programs have provided the 
resources and the strategy to train and recruit the workforce 
we need in the future.
    We continue to foster a strong relationship with future 
scientists and engineers. Our STEM efforts have reached out to 
over 180,000 students, 8,000 teachers across the country. Our 
Science, Mathematics, and Research to Transformation, or our 
SMART Program, funds 670 undergraduate, graduate, and doctoral 
students in 19 DOD-relevant fields of study.
    This is the Department's research and engineering 
enterprise and our focus. Mr. Chairman, thank you for the 
opportunity to present these remarks. With congressional 
support for the President's budget, the research and 
engineering enterprise will have the resources it needs to 
ensure a strong technical base to enhance the Nation's 
security.
    I look forward to your questions.
    [The prepared statement of Secretary Lemnios can be found 
in the Appendix on page 40.]
    Mr. Thornberry. Thank you. I appreciate it.
    Dr. Freeman.

STATEMENT OF DR. MARILYN FREEMAN, DEPUTY ASSISTANT SECRETARY OF 
        THE ARMY FOR RESEARCH AND TECHNOLOGY, U.S. ARMY

    Dr. Freeman. Chairman Thornberry and the distinguished 
members of this subcommittee, I want to thank you for your 
steadfast support of our soldiers who are now at war and for 
your support of Army S&T [science and technology] investments 
that will continue to assure technological preeminence for our 
soldiers in the future. Your continued advocacy is essential 
for our success.
    I appreciate this opportunity to discuss the fiscal year 
2012 Army Science and Technology Program and the significant 
role that Army S&T has in supporting our warfighters. I have 
submitted a written statement and request it be accepted for 
the record.
    I assumed the role of Deputy Assistant Secretary of the 
Army for Research and Technology in July of 2010. I came to 
this job with over 30 years of experience in various positions 
in Army S&T and in DARPA.
    I am privileged to represent a cadre of over 12,000 
scientists and engineers who are dedicated and are highly 
skilled in their jobs, who comprise the Army S&T community. My 
mission is to revitalize Army S&T, to foster better discovery, 
invention, innovation, and demonstration of technologies, both 
for the current and the future.
    We are ever mindful that our technologies and systems are 
tools that we provide the men and women who voluntarily put 
themselves in harm's way for our country. As a result of the 
past 10 years of war, the Army has rediscovered the fundamental 
precept that the soldier, operating as part of a small team or 
combat unit, is our decisive weapon.
    This has led us to consider a different approach to S&T, in 
which our focus is shifting from big platforms and large 
systems to more soldier-centric solutions. We must provide 
technology-enabled capabilities that empower, unburden, and 
protect our soldiers.
    While Army S&T has always provided new capabilities and 
enhancements to our existing capabilities, it is time that we 
step up our game and focus on results that will get the most 
needed advanced capabilities to our soldiers more quickly and 
more affordably than ever before. I believe that the fiscal 
year 2012 S&T budget we have submitted will enable us to 
accomplish this task.
    I am convinced that in a fast-paced, complex global 
economy, Army S&T needs to be better focused, more accountable, 
and more transparent than ever before. To that end, I have 
already begun to reshape my headquarters organization to better 
serve the needs of the soldier and to ensure that Army S&T is 
the go-to place for Army senior leadership on all S&T and 
engineering issues.
    I am also reorganizing the management of our investments to 
allow for better oversight and a more holistic perspective 
across all of our lines. We are organizing our program into 
four portfolios: soldier; ground; air; and command, control, 
and communications. Now, included in these are all of the items 
and areas with which you are familiar, including lethality, 
survivability, medical research, training, and manufacturing 
technology.
    By organizing our enterprise in this way, we are able to 
manage each portfolio in terms of far-term, basic research; 
midterm, applied research; and near-term, advanced technology 
development. My written testimony provides some specific 
details on the efforts in each portfolio.
    Especially in this constrained budget environment, Army S&T 
must better synchronize our programs and major efforts with 
fiscal processes and timelines determined by the needs of the 
warfighter. In the coming months, I will be working with the 
Army senior leadership, our partners in TRADOC [Training and 
Doctrine Command], the program executive offices, and the 
leaders in our S&T labs and centers to develop a list of top-
priority issues or problems that require S&T to close gaps.
    This list will be used to shape our S&T programs with 
quantified objectives for the near term and will help us better 
focus our applied and basic research efforts, as well. This set 
of clear priorities will help us to be more effective in 
reaching out to industry, to other services, to academia, and 
other government agencies to identify partnership and 
leveraging opportunities.
    The health and long-term viability of our labs will be one 
of our major challenges in the years to come. We have long 
worked to make improvements at the margins, and, where 
possible, we have used the BRAC [Base Realignment and Closure] 
process to modernize facilities and infrastructures. But this 
not a long-term solution. Over the coming year, I intend to 
take an in-depth look and look forward to working with you to 
help fix this problem.
    In closing, thank you, Mr. Chairman, for the opportunity to 
testify before this subcommittee and for your support to Army 
science and technology. I look forward to working with you and 
am happy to answer any questions.
    [The prepared statement of Dr. Freeman can be found in the 
Appendix on page 60.]
    Mr. Thornberry. Thank you.
    And I appreciate both of you all keeping your oral comments 
pretty close to 5 minutes. With the number of witnesses and 
Members we have, that is a challenge, and I appreciate that 
very much.
    Admiral, please proceed.

STATEMENT OF REAR ADM. NEVIN P. CARR, JR., USN, CHIEF OF NAVAL 
                      RESEARCH, U.S. NAVY

    Admiral Carr. Thank you, Mr. Chairman.
    I am joined today by my deputy, Marine Corps Brigadier 
General Bob Hedelund, who is right behind me.
    It is an honor to report on science and technology efforts 
within the Department of the Navy and to discuss how the 
President's fiscal year 2012 budget request supports the Navy 
and the Marine Corps.
    The Office of Naval Research works closely with the 
Secretary, Chief of Naval Operations, and Commandant of the 
Marine Corps to address critical challenges to ensure that we 
focus on S&T areas that provide the biggest payoff for the 
future, embrace innovative thinking and business processes, and 
maximize transition of S&T products into acquisition programs 
and commercial use.
    We do this in the most efficient and effective manner 
possible to strike that right balance between responsive, near-
term technology insertion and unfettered, long-term, innovative 
basic research. It is that latter category that holds the 
greatest potential to provide the underpinnings for game-
changing disruptive technologies like GPS, electromagnetic 
railgun, and free-electron laser.
    There are many Navy S&T products in use today, with many 
more on the way. They may not always be highly visible, but 
they are there, from better paint to lifesaving medical 
advances and energy-saving technologies.
    Among our greatest challenges is helping ensure students 
pursue and succeed in science, technology, engineering, and 
math disciplines. This is critical to the future quality of our 
S&T workforce and our global competitiveness. The United States 
is the world's technology leader, but we must continue to 
support a strong S&T base if we are to maintain that position, 
especially in the face of current global trends.
    As Chairman of the Joint Chiefs, Admiral Mullen, testified 
recently, one of the ways you protect against the unknowns is 
to make sure that S&T and pure R&D [research and development] 
budgets are both comprehensive and broad. You need that 
innovation. You need the investment for capabilities of the 
future that starts there.
    The country's R&D effort is being driven increasingly by 
industrial and commercial demand. In 1960, 75 percent of all 
U.S. R&D was government-funded. Today, that proportion has 
dropped to 25 percent. And contained within that decreasing 25 
percent is the higher-risk basic research that may not provide 
the ROI [return on investment] that industry demands. This 
further underscores the importance of our S&T portfolio and 
especially that portion dedicated to basic research. This is 
our seed corn.
    As a measure of research quality, the Institute of 
Electrical and Electronics Engineers, the IEEE, recently ranked 
the U.S. Navy's patent portfolio as the strongest of any 
government organization in the world. Quality is important, but 
so is depth.
    Transition of S&T products to warfighters is our critical 
metric, and we track every single product to ensure we maximize 
that transition. We understand and correct the causes of 
failure when it does occur. Strong S&T investment is about 
managing risk. If every product transitions easily, we are not 
out there far enough pushing the edge of technology.
    At about 75 percent, our current transition rate represents 
a good balance between risk and payoff. Even so, many 
transitioning technologies wouldn't be ready today without 
those basic research investments that were made 20 to 30 years 
ago.
    We focus much of our investment on industry and academia 
within this country and around the world in order to tap the 
full measure of innovation, to push for technologies that have 
commercial application, where possible. For example, algorithms 
developed for sonar signal processing are now helping to reduce 
breast cancer detection rates. And our active Small Business 
Innovation Research partnerships generate new jobs across the 
country while increasing innovation and competition.
    The President's 2012 budget request will help the Navy and 
Marine Corps benefit from carefully considered technology 
investment and build on strong partnerships among the services, 
OSD [the Office of the Secretary of Defense], and throughout 
government and partner countries. I believe the state of our 
S&T investments is sound, represents good stewardship of 
taxpayers' dollars, and enhances significantly the safety and 
performance of our warfighters today and well into the future.
    Thank you again for your support, and I look forward to 
answering your questions.
    [The prepared statement of Admiral Carr can be found in the 
Appendix on page 73.]
    Mr. Thornberry. Thank you, Admiral.
    Dr. Walker.

 STATEMENT OF DR. STEVEN H. WALKER, DEPUTY ASSISTANT SECRETARY 
  OF THE AIR FORCE FOR SCIENCE, TECHNOLOGY, AND ENGINEERING, 
  OFFICE OF THE ASSISTANT SECRETARY FOR ACQUISITION, U.S. AIR 
                             FORCE

    Dr. Walker. Mr. Chairman, members of the subcommittee, and 
staff, I am pleased to have the opportunity to provide 
testimony on the fiscal year 2012 Air Force Science and 
Technology Program.
    The Air Force fiscal year 2012 President's budget request 
for S&T is approximately $2.3 billion, which includes an 
increase of $95 million, or 2.8 percent real growth, from the 
fiscal year 2011 budget. This increase reflects the Air Force 
leadership's steadfast support for its S&T program even in the 
face of a very challenging fiscal environment.
    A lot has happened since I testified here about a year ago 
as the brand-new S&T executive for the Air Force. I have 
enjoyed this new role and the many challenges and opportunities 
it has provided. It has been busy, but we have gotten a lot 
done.
    I am pleased to say that, this past year, the Air Force has 
developed and published an S&T strategy, the first of its kind 
since 2004; created a collaborative S&T planning process that 
maintains a balanced technology push from the laboratory and a 
technology pull from the warfighter.
    The Air Force S&T Program provides the foundation for the 
majority of the Air Force's strategic priorities. These 
strategic priorities, along with the input from the warfighter, 
our S&T vision as articulated in Technology Horizons, and our 
S&T strategy inform our new S&T planning effort to help shape 
our future investments.
    The S&T planning process, which was created over the past 
year with extensive participation from across the Air Force, 
provides a framework for the major commands, the product 
centers, and the Air Force Research Laboratory to work 
collaboratively to identify and understand both technology 
needs and potential solutions.
    The Air Force's S&T fiscal year 2012 President's budget 
request supports four overarching priorities detailed in the 
strategy. I would like to discuss those with you briefly.
    Priority 1 is to support the current fight while advancing 
breakthrough S&T for tomorrow's dominant warfighting 
capabilities. We must invest in S&T that will enable the Air 
Force to operate effectively and achieve desired results in all 
domains and operations, both today and in the future.
    The Air Force Rapid Reaction and Innovation Process, known 
as Core Process 3, is designed to tightly integrate S&T 
knowledge with operator knowledge to deliver solutions to the 
warfighter in 12 months or less. In the past year, we have 
developed several quick reaction solutions, one recently to Air 
Mobility Command, single-pass airdrop capability for Air 
Mobility Command.
    It is also important to note that we also create technology 
options for the future. We have increased basic research 
funding by $18 million to focus on far-term priorities, as 
well. For example, efforts are under way in our Robust Scramjet 
program that will support future long-range strike and 
operationally responsive space access solutions.
    Priority 2 is to execute a balanced, integrated S&T program 
that is responsive to the Air Force service core functions. 
This priority essentially speaks to where we will invest our 
next S&T dollar.
    We have established a program element for sustainment that 
is dedicated to developing and demonstrating technologies to 
address operational sustainment issues in existing systems as 
well as supporting new systems. We are investing resources 
toward emerging warfighter concepts; supporting the needs of 
the nuclear enterprise; reducing our vulnerabilities to cyber 
attack; evolving our intelligence, surveillance, and 
reconnaissance capability; demonstrating long-range strike 
technologies; and investing in a diverse energy technology 
portfolio.
    We are also tapping innovative ideas from small business to 
help us in all these efforts.
    Priority 3 is to retain and shape the critical competencies 
needed to address the full range of S&T product and support 
capabilities. Said another way, we must have a dedicated, 
educated, and highly skilled workforce of scientists and 
engineers. And toward that end, we are actively seeking to 
improve our intramural basic research program and increase our 
organic cyber workforce.
    We are also supporting Air Force science, technology, 
engineering, and mathematics initiatives to develop and 
optimally manage the S&E [science and engineering] workforce of 
the future. ``Bright Horizons,'' an Air Force STEM [science, 
technology, engineering, and mathematics] strategic roadmap for 
shaping the way the Air Force manages its mission-critical STEM 
capabilities, is currently in coordination and is expected to 
be signed this spring.
    Finally, Priority 4 is to ensure the Air Force S&T Program 
addresses the highest-priority capability needs of the Air 
Force. And as part of that, we established this S&T planning 
process and created something called the ``flagship capability 
concept.'' These are Air Force-led demonstrations of 
capability.
    The Vice Chief has recently endorsed three: a high-velocity 
penetrating weapon, a reusable space access program, and a 
cyber program that I can talk about later. These three programs 
will be at the forefront of where the Air Force Research 
Laboratory goes in demonstrating new capability for the 
warfighter.
    In conclusion, the Air Force S&T Program is balanced to 
address warfighting needs, both near-term and far-term. By 
focusing on the S&T priorities documented in the recent 
strategy and utilizing the new Air Force planning process to 
listen and respond to the warfighter, the Air Force S&T Program 
will continue to provide the technological edge needed to win 
today's fight and prepare for tomorrow's challenges.
    Mr. Chairman, thank you again for the opportunity to 
testify today, and thank you for your continued support of the 
Air Force S&T program.
    [The prepared statement of Dr. Walker can be found in the 
Appendix on page 89.]
    Mr. Thornberry. Thank you.
    Dr. Dugan.

 STATEMENT OF DR. REGINA E. DUGAN, DIRECTOR, DEFENSE ADVANCED 
      RESEARCH PROJECTS AGENCY, U.S. DEPARTMENT OF DEFENSE

    Dr. Dugan. It is said that vision without execution is 
daydreaming. There is a time and a place for daydreaming, but 
it is not at DARPA. DARPA is a place of doing. For 50 years, 
our doing has been the creation and prevention of strategic 
surprise.
    Today I would like to focus on a few examples that 
characterize the breadth of activities at the Agency. They are 
intended to open the door for an ongoing exchange.
    Chairman Thornberry, Ranking Member Langevin, members of 
the subcommittee, my name is Regina Dugan. I am the director of 
DARPA, and I am honored to be here.
    Submitted for the record in support of our budget request 
is the Agency's full testimony.
    If I am able to leave you with only three key takeaways, 
this is what I would like you to know:
    First, strategic surprise does not conform to a 
predetermined timeline. Sometimes it requires 5 to 10 years, 
sometimes only 90 days.
    This spectrum is revealed most vividly in our support to 
operations in Afghanistan. Within 90 days, a Skunk Works 
[Lockheed Martin Advanced Development Programs] effort yielded 
advances in computational techniques; an analysis cell went to 
ISAF [International Security Assistance Force] Headquarters 3 
weeks later. We stood up a forward operating cell. Three months 
later, a wide-area LIDAR [light detection and ranging] system 5 
years in the making was providing 3D [three-dimensional] maps 
to users. At full operational capacity, the HALOE [High 
Altitude LIDAR Operations Experiment] system can map 50 percent 
of Afghanistan in 90 days, whereas previous systems would have 
required 3 years.
    Second, efficiency is, of course, the ratio of output to 
input. Speed and leanness are important to the input. Choosing 
among ideas is the challenge for output. And, frankly, that is 
the hard part.
    Speed is part of the vibrancy of innovation, and the 
absence of bureaucracy is a brand attribute of DARPA. In the 
last year, our contracting time has been reduced by 20 percent. 
And, by September, improved execution had put 600 million more 
to work for defense and in the economy than in any of the 5 
years prior. We have had the same number of program managers 
since 1992.
    The output side is governed by how we choose. The real 
challenge at DARPA is not generating ideas, it is choosing 
among them. To address this challenge, we have developed 
several deeply quantitative analytic frameworks. Through them, 
we ask: Where are the opportunities to effect changes not in 
the margins but in big, bold strokes?
    As an example, the time required to design, test, and build 
complex defense systems has grown from 2 years to more than 10. 
We simply must improve our ability to make things. Our Adaptive 
Make program seeks to bring manufacturing advances like those 
realized in semiconductor, software, and protein production to 
defense systems. The goal? Compress the time to field military 
ground vehicles by a factor of five.
    There is no issue more fundamental to the Nation's defense 
and competitiveness than this because to innovate, we must 
make, and to protect, we must produce.
    Finally, current approaches to cybersecurity are necessary, 
but they are divergent with an evolving threat. This calls for 
aggressive R&D, and we are stepping up to the challenge.
    Over the last 20 years, security software has increased 
from thousands of lines of code to over 10 million lines of 
code. By contrast, malware has remained at a near-constant 
average of 125 lines of code. Ten million versus 125. It is 
like being in the ocean and treading water; you must, but if 
that is all you do, eventually you will drown. We need new 
options. So we recruited an expert team, increased our 
investment, and launched several new initiatives.
    Three key takeaways then: DARPA's singular mission is the 
creation and prevention of strategic surprise, which can happen 
over a decade or in 90 days. Choosing among alternatives is 
where we realize big payoffs in effectiveness. This is 
highlighted by our need to improve manufacturing, because to 
innovate, we must make, and to protect, we must produce. And 
finally, current approaches to cybersecurity are divergent with 
an evolving threat. We need new options.
    This past year was one of vision paired with execution. 
Chairman Thornberry, Ranking Member Langevin, and members of 
the subcommittee, I thank you for your support, and I look 
forward to your questions.
    [The prepared statement of Dr. Dugan can be found in the 
Appendix on page 110.]
    Mr. Thornberry. Thank you, Doctor.
    And let me thank you all again for condensing down. I know 
you have a lot to say, and I know it is hard to do that in a 
five-minute period, but I am grateful, for the reasons I have 
indicated.
    It also occurs to me, as I survey the table there and read 
up on your credentials, your experience, the country is very 
fortunate to have each of you in the positions you are. Each of 
you could be making a whole lot more money doing other things, 
and we are grateful that you and the folks who work with you 
are doing what you are doing.
    I am going to yield my 5 minutes to the gentleman from 
Pennsylvania, Mr. Shuster, to go first.
    Mr. Shuster. Thank you, Mr. Chairman.
    And I appreciate all of you being here today. And I agree 
with what the chairman said. A lot of firepower, brain power 
out there, and we certainly appreciate what you do for our 
Nation.
    First, Dr. Dugan, you made the comment, you have had the 
same number of project managers since 1992. Is that accurate?
    Dr. Dugan. That is correct.
    Mr. Shuster. How have you been able to do that? You are 
probably the only department in the Federal Government that is 
able to make that claim.
    Dr. Dugan. Yeah.
    Mr. Shuster. How have you been able to do that? Is it 
innovation? I mean, what goes on over there that keeps you at 
that level and keeps you continuing to produce a high level of 
work?
    Dr. Dugan. Program managers at DARPA come for a tour that 
lasts about three to five years. They run projects at the 
Agency with a similar time period. And so, many scientists and 
engineers view their time at DARPA as their service to country. 
And, as a result, we have a constant influx of new ideas, new 
expertise, and so on.
    Mr. Shuster. Well, I guess that is something we can learn 
throughout the government, how to do that. So I appreciate 
that.
    Mr. Lemnios, you and I have discussed before a program that 
is out there, FirstLink, that works with the Department's 
science and technology efforts, its research activities, 
working with all branches, including the Defense Office of 
Technology, Air Force Research, the Navy, the Army Research 
Laboratory. And their mission is to accelerate the rate that 
technologies from the Pentagon laboratories are transitioned 
into commercially viable application for you and for first 
responders.
    And we had the discussion, and I wanted to know what the 
status of that program--they have done a great job of moving 
those technologies forward and giving back money to the 
Department of Defense, so they are working at no cost. So I 
wondered what is going on with those programs and what do you 
view the future of that type of program.
    Secretary Lemnios. Well, Representative, that program is 
not in the President's fiscal year 2012 budget, but we have 
looked broader at how we could incorporate those concepts as 
part of the Small Business Programs, and we are doing just 
that. In fact, the Innovative Research Program that was in the 
authorization bill--the funding, actually, doesn't track it 
yet--is part of that thinking.
    And what we have done broadly across the SBIR program is 
look at how we can pull ideas out of that community, couple 
those with the warfighter and with the service needs, and do 
that more effectively. In fact, just this last month, we looked 
at our Phase I and Phase II efforts that were currently funded. 
We have identified a number of projects, and we are looking at 
how we could accelerate those to the next phase.
    So we are trying to take what came out of the FirstLink 
effort and really broaden it across the Department in some 
other efforts.
    Mr. Shuster. And I am not sure I understand that thinking, 
at this point in time, when, you know, we are looking at 
budgets, we are looking at ways to save money.
    When you have a program that has returned $6.5 million back 
to the Department of Defense, why are we cutting it out at this 
time? Why wouldn't we be looking at these? And there are other 
companies out there that are doing the same sorts of things. 
Why are we doing that?
    And that is why I started off my first question to Dr. 
Dugan, about how they are able to perform at such a high level 
with the same numbers. It just seems to me that this 
administration wants to bring things in-house that doesn't 
always have a positive outcome when it comes to the bottom 
line, when it comes to producing things quickly.
    So how does that logic work in this case?
    Secretary Lemnios. Well, I can tell you that, with regard 
to our small-business community that we care deeply about, that 
the ingredient there is to be more informative with that 
community in terms of what our Department needs are and to try 
to couple those efforts earlier on into that process.
    And, in fact, last year, at this hearing, I took a question 
from Congresswoman Sanchez on exactly that topic, in terms of 
how do we more effectively couple that. I think I sent you a 
note just recently in terms of how we would do that with regard 
to the FedBizOpps [Federal Business Opportunities] portal.
    So we are looking at the broad issues of how do we couple 
the small-business community into this enterprise. We looked 
across our budget and our programs. And as part of that, we 
think that there is a broader way to address that issue.
    Mr. Shuster. So, $6.5 million over the past couple years, 
you have decided that has not been a good return for you on it. 
And, again, I talk to the small-business community all the time 
and am involved in an effort right now where the small-business 
community across DOD feels as though they are not getting a 
fair shake. And that is where many of these ideas come from. So 
it just seems to me, cutting out something like this that has 
had a good return is going about it in the wrong way, 
especially when we are looking at reducing budgets or finding 
savings in the Department of Defense.
    I see my time is ready to expire. So I will be watching 
closely, and I am sure we will be communicating to see what 
happens here. And I have great doubts that we are going to see 
this kind of success by moving it into the--by the Department.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Obviously, they just called votes, but I 
will yield to the ranking member to ask his questions, and then 
we will come back immediately after the last vote.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again, thanks to our panel for your testimony today.
    Let me start with Secretary Lemnios.
    Secretary, in the Fiscal Year 2011 Defense Authorization 
Act that passed the House and the Senate earlier this year, the 
committees directed the Secretary of Defense to establish a 
competitive, merit-based rapid innovation program to accelerate 
the transitioning of promising technologies into actual defense 
acquisition programs. The funding of this initiative was 
included in the continuing resolution we sent to the Senate, 
but obviously hasn't passed into law just yet.
    The language in the bill provides large leeway for the 
Department to select promising projects under this program, 
from SBIR Phase II, defense laboratories, and other innovative 
initiatives.
    I think everyone on the committee would be interested in 
hearing how the Department plans on administering the program 
once it is funded.
    And I believe that funding for this program was 
appropriated for each of the services, as well, so I would 
welcome, of course, the comment from the other witnesses on 
this topic.
    Secretary Lemnios. Congressman, thank you for the question. 
That was exactly the program that I referred to earlier. In 
fact, we have gone through and looked at our SBIR programs to 
identify those that have a direct connection to combatant 
needs. Over the course of the last several months--in fact, we 
started this process last August, when we had our first 
discussions on this topic.
    We have identified a number of Phase I and Phase II efforts 
that are far enough into the process that we ought to be 
transitioning those to end-user needs. And we are looking at 
how we might do that within our existing authorities and 
existing budget, short of an H.R. 1 passing.
    So I would agree with you that there are some low-hanging 
fruit. We have identified a few of those. And we will be 
working over the next several months, responsive to the 
statute, to come back with a plan that supports this broadly 
across the Department.
    Mr. Langevin. Thank you.
    Other witnesses' comment on this?
    Admiral Carr. I would just add that we get great leverage 
out of the SBIR program and we rely it. We have about a little 
over a thousand relationships with industry, in terms of our 
basic and applied research, and over 800 of those are with 
small business. Not all of those are through SBIR, but we very 
rely heavily on small business and want to do what we can to 
keep the relationship strong.
    Dr. Walker. On the Air Force side, we are interested in 
getting more money into sustainment. And so we have thought 
about using some of the money in that fund for small business 
to participate in answering needs from our air logistics 
centers. Because we would like to get--and I think the 
opportunities to transition and commercialize small-business 
activities on the sustainment side is huge, and we haven't 
taken great advantage of that, up to this point. So I would use 
some of that money for that.
    Dr. Freeman. And on the Army side, you know, we also have 
lots and lots of experience and good results coming out of both 
Phase I and Phase II, about $475 million in the Army in this 
program. And we remain committed to execute this program.
    And part of what I am looking at for the Army is for the 
Army SBIRs, how to streamline the process a little bit better 
in the way we actually select the programs and actually go 
forward with selecting programs. And part of that process, I 
want to look at those that are Phase II and match them up with, 
as I talked about, some of those big ideas and big Army 
challenges that we have, closing gaps, and be able to identify 
those that are really high payoff, big promising, to fill some 
of those gaps.
    And I would use the money to be able to accelerate those 
and get those into, essentially, Phase III and transition those 
programs either into National Stock Number-type items or into 
acquisition programs of record.
    Dr. Dugan. I will just comment on our engagement with small 
businesses generally.
    So, above our approximately 2.8 percent mandate in SBIR, 
the Agency funds approximately threefold that amount to small 
businesses. Our engagement with them is focused not only on 
getting them resources but also increasing our speed to get 
them under contract, because speed is so important to small 
businesses, and, as well, simplifying our approach.
    So, as I mentioned earlier, our contracting time is down by 
over 20 percent, at this point, with small businesses. We have 
reduced our contract vehicle from approximately a 50-page 
contract to a 10-page contract. And we have conducted, over the 
last year, two industry summits. We have had more than 200 
companies in; 70 percent of those companies were small 
businesses. They represent 16 different segments from 30 
different States.
    So our engagement with the small-business community from 
DARPA is very robust, both in terms of the ideas that they 
bring and, as well, their performance in our portfolio.
    Mr. Langevin. Thank you.
    My time has expired, but let me just say that there are so 
many incredible small businesses out there that have these 
innovative products to offer and, as you pointed out, have been 
effective at making sure that some of them have been brought to 
the warfighter very effectively that otherwise might have been 
ignored by big business. And we need to do more. I haven't been 
satisfied that SBIR has functioned as it really was intended 
and hasn't been as robust as it could be.
    But we need to rededicate ourselves to these kinds of tech 
programs that will support ultimately the technologies and 
ultimately protecting and helping the warfighter.
    So, with that, thank you, Mr. Chairman. I yield back.
    Mr. Thornberry. I thank the gentleman.
    It looks like we have three votes. We have just about 9 
minutes remaining in this vote. My guess is, that is probably 
going to mean 25 to 30 minutes, probably, before we are back.
    You all make yourself as comfortable as you can. We will be 
back as soon as we can.
    The hearing will be in recess.
    [Recess.]
    Mr. Thornberry. The subcommittee will come back to order. 
Thank you all for your patience.
    And I will recognize the gentleman from Texas, Mr. Conaway, 
for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    And I appreciate everybody being here today.
    Mr. Lemnios, I am told that you have devolved several of 
your projects out of your team on to the various services under 
the guise of efficiencies and possible cost-cutting to save 
dollars, and yet the requests in the programs don't seem to 
have been--the dollars still seem to be the same.
    Can you walk us through how the mechanics on these 
efficiencies are going to work?
    Secretary Lemnios. Congressman, absolutely. We, in fact, as 
part of the Secretary's efficiencies initiative, moved several 
projects from management out of the Office of the Secretary of 
Defense down to the services where those would be more 
impactful.
    One of those is the work that we have with the historically 
black colleges and universities. That was devolved to the Army. 
In fact, the budget request is identical. The savings to the 
Department is the savings in, essentially, overhead, if we 
could call it that, and latency, latency of execution.
    There were other projects, as well, across the Department 
that were moved to the services where they could be more 
efficiently executed without compromising the intent of those 
programs.
    Mr. Conaway. Are you going to able to quantify that there 
are, in fact, savings? I mean, it is one thing to be intuitive 
about it, but it is something else if you can actually show 
where that has happened.
    Secretary Lemnios. Well, I will tell you that the Secretary 
and, certainly, Dr. Carter is challenging us to quantify every 
one of the efficiencies----
    Mr. Conaway. Okay.
    Secretary Lemnios [continuing]. Transfers that we have had 
made. And we are in the middle of doing just that.
    Mr. Conaway. A question for all of you in the time 
remaining.
    The acquisitions panel that Rob Andrews and I worked on had 
extensive testimony that prototypes used earlier in the system 
would, in fact, save money and/or avoid cost overruns or cost--
or challenges that happen by delaying that.
    Have you been able to push prototyping further up, earlier 
into the food chain or the stream to any advantage, at this 
point?
    And if any of you could answer.
    Dr. Freeman. Yeah, let me take it first.
    We actually are doing something, and, in our request, there 
is a $10 million increase in Army S&T. We have established a 
6.4 funding line that I will manage out of Army S&T 
specifically to try to get competitive prototyping and taking 
technologies that are relatively immature, high-payoff-type 
technologies, and taking them to a higher technology readiness 
level.
    And what this does is, we intend to increase this line over 
time, so this is sort of a beginning of that process of moving 
that prototyping earlier and earlier. And we are starting with 
$10 million. We are going to probably do a couple of programs 
this year, and then we will transition those over to 
acquisition programs. And then we will increase that line over 
time, where we can do more and more of that kind of 
prototyping.
    Mr. Conaway. Okay.
    Admiral Carr. We have a similar initiative too, although 
the 6.4, at this point, has not been given directly over to me. 
I have been asked to put programs forward that would benefit 
from the application of 6.4; we call it speed to fleet.
    About 30 percent of my budget is our Future Naval 
Capabilities, and these develop 5- to 7-year time horizon 
component technologies that go into programs of record. And so, 
aligning those prototypes with the program of record and making 
it so that the prototype can flow into the program of record 
with lower risk and lower cost, that is that lubrication we are 
looking for.
    Mr. Conaway. Okay.
    Admiral Carr. At a higher end, we have what we call our 
Innovative Naval Prototypes. These are the high-risk, high-
payoff, like free-electron laser and electromagnetic railgun. 
These will deliver working prototypes that won't necessarily 
fall under a program of record but are disruptive technologies. 
So it is a slightly different application.
    Mr. Conaway. Okay.
    Dr. Walker. Sir, part of our planning process I talked 
about was to generate these flagship capability concepts--these 
are large-scale, integrated demonstrations of technology--and 
connect those with development planning efforts to, as the 
admiral said, feed into programs of record the Air Force is 
thinking about.
    So the three we picked this year all have development 
planning efforts and potential future programs of record that 
the Air Force is lining up. So the ability to connect S&T with 
the new program of record is what we are after.
    Dr. Dugan. We have a very aggressive manufacturing 
initiative at DARPA precisely to deal with some of the concerns 
that the Members here have raised.
    The deputy director and I both come from private industry. 
We have both been engaged in the design, test, build, and 
fielding of original, new equipment. One of the things that we 
observed is that, every time we hit a seam in that process, 
when we go from design to prototype, from prototype to first 
production run, from first production run to full production 
run, every time we hit a seam, we encounter problems.
    Now, when we examined the timeline to develop and field 
complex defense systems, we noted this increase from 2 years to 
10 years. And then we sought existence proofs, essentially, of 
other industries where they weren't realizing that significant 
growth. And we observed them in the semiconductor industry, in 
software, and in pharmaceutical protein production.
    And in each case, it is true that when you can improve the 
quality of your design tools such that you have a correct by 
construction type design, you improve the fluidity of your 
manufacture, you can begin to erase these seams. And it is with 
that very aggressive perspective that we are pursuing advances 
in manufacturing.
    Mr. Conaway. All right.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I thank the panel for coming today. I appreciate your 
testimony and the tremendous work you are doing on behalf of 
all of our service men and women.
    I have a series of questions. We will see how far we get on 
them. If not, I will submit them for the record.
    The first has to do with brain injury and post-traumatic 
stress disorder. And I am interested to know the scope, where 
research is being done, and a summary of preliminary 
observations.
    I guess I will point that toward Dr. Freeman and Admiral 
Carr, although I would be willing to hear from anybody that has 
anything on that score.
    Dr. Freeman. Yeah, thank you for that question, because, 
you know, that is something that we are absolutely, positively 
working very, very hard on. And it is very frustrating for us 
as well as for the families and for the servicemembers 
themselves who are suffering, whether it is with traumatic 
brain injury or post-traumatic stress disorders, that we are 
trying to really understand that.
    We are doing several things. We put a lot of money, a 
couple of years ago, into the medical research in this area. 
And what that did is that seeded a lot of research efforts, 
sort of, across the board to get that understanding of what is 
going on.
    We are now in the process of taking that medical research 
and focusing it under several efforts and initiatives and under 
this soldier portfolio that I was talking about and pulling 
that research together to really make a huge difference. And a 
lot of that research is going on in universities, a lot of that 
research is going on in our medical centers.
    And what we are trying to do, at this point--and I am sorry 
to say we don't have an answer today of, you know, being able 
to stop and/or totally treat and/or basically restore 
everybody's capability here, but we are working very hard 
across the board in both the medical and nonmedical areas to 
understand this problem. And we have a significant amount of 
our budget in the medical and in the nonmedical work to address 
that.
    Admiral Carr. Thank you, also, for the question.
    At the Naval Research Lab, right here down the river, we 
have done a lot of modeling on understanding the dynamics of 
traumatic brain injury, what goes on in the brain as it moves 
back and forth and overpressure. We have actually got 
mathematical models and physical models to try and understand 
that phenomenon better, and, from that, to try to understand a 
better helmet design, for example, how you might make sure the 
helmet is not part of the problem.
    Mr. Gibson. Yeah.
    Admiral Carr. We are looking at additional technologies to 
try and inoculate the soldier or the Marine from that 
environment through training, through immersive training, 
multimode training, that can be very effective, as the Marines 
like to say, ``so the first firefight is no worse than the last 
simulation''; and, finally, to find and identify markers that 
might give us insight into people that are at greater risk for 
suffering post-traumatic stress disorder.
    And if I may just take a second and ask my deputy, General 
Hedelund, if he has anything to add about the training or the 
subject.
    Mr. Gibson. Thank you.
    General Hedelund. Thank you, sir.
    Many of the Members may have visited the IIT [Infantry 
Immersion Trainer] facility out at Camp Pendleton. And, as the 
admiral mentioned, the technology that we are putting into that 
facility is aiding commanders, small-unit leaders, and 
individual Marines in getting exposed to what we are now 
beginning to call resiliency and to be able to make that a 
building block to a higher resiliency in our Marines.
    Now, brain injury is brain injury. That is a topic, and we 
have heard already from the panel on how difficult that is. But 
the post-traumatic stress piece may be preventable, at least to 
a degree, by some of the resiliency work that we are doing. So 
the IIT helps us there, and there are a number of efforts in 
that realm.
    Thank you.
    Mr. Gibson. I appreciate the updates, and it is 
encouraging. And I look forward to continuing to stay in touch 
with that as we go forward.
    Dr. Dugan. I can add to that, because we have had a role in 
TBI [traumatic brain injury] and also PTSD [post-traumatic 
stress disorder].
    The TBI work was foundational for us. It characterized the 
levels of blast that would result in damage that could be 
recovered, damage that needed to be treated, and damage that 
was catastrophic. That work was then fed into our efforts to 
develop a low-cost blast dosimeter. They work hand-in-glove.
    And both are part of an overall combat casualty care ethic 
at DARPA. We have six program managers devoted to combat 
casualty care. They have activities ranging from 
revolutionizing prosthetics all the way through to TBI.
    Mr. Gibson. Well, thank you very much. And I appreciate 
that.
    Ms. Dugan, one last thing before I hand it back to the 
chairman. Have you been to the College of Nanoscale in Albany, 
New York, yet?
    Dr. Dugan. I have not personally been, no, sir.
    Mr. Gibson. Well, great. I would love to invite you on a 
trip. Some exciting research is going on up there, and I would 
like to introduce you to some of the folks up there, if you 
have time.
    Dr. Dugan. Thank you for your invitation.
    Mr. Gibson. And I yield back.
    Mr. Thornberry. I thank the gentleman.
    Mr. West.
    Mr. West. Thank you, Mr. Chairman; also, Mr. Ranking 
Member.
    Dr. Freeman, as a career Army combat arms officer, I am 
pretty aware that many of our ground-pounders have available to 
them an array of technologies that can greatly enhance their 
mission performance and probability of survivability. But they 
are unable to, you know, carry a lot of this stuff, as far as 
the full advantages of counter, sniper, IED [Improvised 
Explosive Device], UAV [Unmanned Aerial Vehicle], and 
communications platforms, and other technologies.
    I had some people talk to me about a platform out there, a 
system, and I would like to know, have you heard about this 
thing called the Jake? And if you have, can you tell me what 
stage we are in, as far as assessing the Jake? And if we see 
that it does have any merit, I mean, what is the way ahead, 
and, of course, how can this committee help you?
    Dr. Freeman. Yeah, that is--what you refer to is obviously, 
you know, part of what we have rediscovered, as I said, about 
focusing on the soldier as the decisive weapon, and the idea 
that we have basically been adding things like ornaments on a 
Christmas tree to give them more capability, but also then we 
end up burdening them, both cognitively and physically, as well 
as protecting them.
    And so we are really trying to understand--first of all, 
let me tell you that we are starting an effort that is--we put 
an additional $10 million in to study soldier load and to 
really get our arms around all of the things that can help us 
for soldiers and small units to balance that load and to get 
that load off of the soldier, to reduce it down to acceptable 
levels, as opposed to the 130 pounds that many folks carry 
today that you are well aware of.
    I do know about the Jake mobility. The way I look at Jake 
is, it is an individual mobility-type platform. It falls, in my 
mind, into the arena of being a way to offload some of the 
weight because it can carry certain things that the soldier 
doesn't have to carry. But it also gets the soldier to the 
battle perhaps less fatigued.
    Now, having said that, there are a number of different 
concepts like that out there. And what I have offered to do and 
we are pursuing this year and I am trying to get it done in the 
springtime here, maybe June-type timeframe, is do what we call 
a mobility war game, where we are going to bring people from 
across the Army together with, first of all, soldiers who have 
experience. We are going to have a vignette that we play or a 
scenario that we play that is really looking at how the small 
combat units would use equipment like Jake and other kinds of 
mobility or offloading-type technologies. We then compare the 
results of these tabletop war games and try to figure out, you 
know, okay, what did the soldiers like about it, what didn't 
they like about it, how successful was it.
    Depending on the outcome of that game, then we can figure 
out where we want to go, if we want to go with Jake or any of 
these other kinds of systems.
    Mr. West. Thank you.
    And one other question I had: Last week, the AUSA 
[Association of the United States Army] went to a symposium 
that was down in our district in south Florida. And one of 
the--dovetailing off of what Representative Gibson talked 
about--BAE Systems has a helmet out there which has a brain 
sensor in it which can help with the evaluative protocols in 
near-time.
    Are we looking to see how we can develop that helmet 
system?
    Dr. Freeman. Yes, actually, Representative, we really have 
been working that. In fact, I have been working ever since I 
was up at Natick. We had a CRADA [cooperative research and 
development agreement] with BAE. And BAE has been looking on 
their IR&D [industrial research and development], by the way, 
at these kinds of load and different equipment that will help 
unburden the soldier. And they did look at and we have looked 
at their helmet design.
    We are taking those kinds of things--because there are a 
number of helmet designs. We are working with the Natick folks, 
and we are working with the medical folks, as well as the PEO 
[Program Executive Office], to look at new helmet designs. And 
that will be included in how we look at where we are going. 
This would be beyond ACH [Advanced Combat Helmet].
    Mr. West. Well, thank you very much, panel.
    And I yield back to the chairman.
    Mr. Thornberry. I thank the gentleman.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Chairman.
    And thank you, again, to all of you. And I just want to 
reiterate how proud we are of you and your work and service to 
our United States. I have had the pleasure of working with 
several of you personally, and you are top-notch people.
    I have a couple of questions that I want, one that is very 
specific to a particular program that I have for the panel, and 
then the second would be about our labs. As you know, we have 
several great ones in California.
    The first one is about the Medical Free Electron Laser 
program. And it is peer-reviewed. It is competitive grant 
funding. And in partnership with the military's medical 
laboratories, centers selected for funding under this program 
have had an impressive record of technology innovation and 
invention.
    The Department has judged this program as being important 
to meeting the joint force's health protection capability gaps 
requiring medical R&D in the Department's assessment report, 
``Guidance for Development of the Force, Fiscal Years 2010-
2015.''
    So in fiscal year 2010, the Military Photomedicine Program 
was placed under the wing of the Defense Health Program, DHP, 
and was funded with an allocation of $5 million from the GDF 
[Guidance for the Development of the Force] enhancement 
funding. But in the fiscal year 2012, the President's request 
has cut that line item by $125 million less than the program 
before, which means that this Military Photomedicine Program is 
a program that is well-liked, has great results, but there 
doesn't seem to be any funding for it in the fiscal year 2012 
budget.
    So I would like to know specifically what your ideas are on 
where the funding is going to come to continue to do that 
program.
    Sorry for getting technical, but I think you know where I 
am headed.
    Dr. Freeman. I will take that one on.
    The fact is that, you know, that is a program that I have 
very little familiarity with in specifics. What I would like to 
do is, I would like to take that for the record and get an 
answer back to you.
    [The information referred to can be found in the Appendix 
on page 145.]
    Dr. Freeman. Because I really need to go to work with the 
commander of the MRMC, Medical Research and Materiel Command, 
and get an answer to that. Because that would be under his 
realm of responsibility, and he has authority over that DHP 
program, where I do not. But we work together very closely, and 
I will get an answer for you.
    Ms. Sanchez. Great. Well, obviously, some of my funding in 
my district is directly--you know, they keep changing where 
they get the money from, and they don't know. And, as you know, 
stability and understanding where moneys are coming from, or if 
they are even coming, is important, as these technically very 
professional people, just as you would, you know, put their 
lives on hold to go and do something for the government, and 
they don't know if they are going to have a job tomorrow. So it 
is about jobs, jobs, jobs.
    Okay, the other question that I have is about facilities. I 
think that this committee has invested a lot in the people 
between the walls. I mean, we have been working very hard and 
we have put the money in. But I am very concerned about this 
new technology innovation/creation that you all are in charge 
of sitting in outdated labs or labs of the 20th century, if you 
will.
    And how can we help you? And do you need help in that 
arena?
    Secretary Lemnios. Well, Congresswoman Sanchez, let me 
start, and, certainly, the service S&T executives can respond 
specifically with regard to their service.
    Having come from a federally funded research and 
development center and having worked in a building that was 
built the same date as the Pentagon was built, I know the 
issues very well. We had a facility at MIT [Massachusetts 
Institute of Technology] that was absolutely first-rate because 
of its people, because of its mission, but, in fact, we had 
facilities that were 50 years old or even older. And that 
wasn't part of any budget authority that would allow us to 
update those. And that is really your question, how do we do 
that.
    I will simply point out that there are three things that we 
need in our laboratories. We have two of them. The first is a 
mission, a clear direction in terms of what problem are the 
laboratories addressing that has significance to our Nation and 
to our Department. We have that.
    The second is first-rate people. And I have visited many of 
the laboratories. In fact, we have absolutely first-rate 
people. But if we don't have the facilities, that third piece 
just isn't there, and that is really a cohesive piece.
    As I have visited the Air Force Research Laboratory in 
Dayton, as I have visited the Naval Research Laboratory not too 
far from here, certainly Aberdeen and other facilities are a 
big issue, and that is an authority that we probably need your 
help with.
    The services can talk specifically to their areas, but I 
will simply say that, as we have looked across the S&T 
enterprise, the science and technology enterprise, we have been 
clear about what our S&T priorities are. And that provides us a 
challenge to work with the laboratories to really make sure we 
fit those laboratories with the resources they need to work in 
those areas.
    I think it is going to look very different 5, 10 years from 
now as compared with today. The commercial sector's 
laboratories look very different today as they did 10 years 
ago. So I don't think it is just a matter of rebuilding the 
bricks and mortar that we have in place today, and I don't 
think it is even quite the same footprint. I am not sure what 
the footprint actually looks like. And I think we really need 
to go back and look at that in light of how the commercial 
sector does their basic research, how academia does its, and 
how the Department should do our basic research efforts.
    Ms. Sanchez. I saw that you gaveled me, so--I mean, I would 
love to hear anybody else's response if they have a particular 
request of this committee to push. Mr. Chairman?
    Mr. Thornberry. If there is a brief additional response, 
since we have fewer Members than before.
    Admiral Carr. I would just add that the Naval Research Lab 
was authorized and appropriated in 1916, and some of the 
buildings look like it. We do our best to try and keep up with 
facilities modernization, but, particularly in a day like this, 
it is just very difficult for labs and shore infrastructure to 
compete with piers and runways and the other kinds of 
infrastructure that directly support the mission.
    So it is a real challenge for us. We are trying to 
modernize what we have. We do have one MILCON [Military 
Construction] in progress right now; it is an autonomy lab at 
NRL [the Naval Research Lab]. But MILCON, in particular, is 
very difficult.
    And I would just like to add, thank you. You are absolutely 
right. The support for the people programs that the committee 
has put in place have been very, very helpful. Because part of 
the challenge isn't just the facilities but, as you said, 
hanging on to the people that have to work in those buildings, 
and they look around at other opportunities. So some of the 
other inducements and flexibilities that the committee has 
given us to do that are very helpful. Thank you.
    Dr. Walker. I would just add that AFRL [the Air Force 
Research Laboratory] is not in bad shape because we have the 
2005 BRAC. And so, a lot of that movement has come with money 
to build buildings. Section 219 has also helped us build new 
laboratory space, and so that has been very helpful.
    Dr. Freeman. And just add, for the Army, you know, BRAC is 
helping us, with Aberdeen in particular. But all of the other 
laboratories have serious issues. And what I am looking at is 
taking a look at it across the board. Instead of them being lab 
directors leaving them to just look at their problem on their 
own or in their command, I want to take that up to a higher 
level and work to try to figure out what our priorities should 
be across the laboratories in the Army. And then I look forward 
to working with you all to figure out what kind of authorities 
we can have to use funding to solve those problems.
    Dr. Dugan. And I will just add, so as not to be noticeably 
absent, we have no captive labs at DARPA. And we rely on the 
health of the laboratories in the service organizations as part 
of our performer base.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Mr. Thornberry. I appreciate the gentlelady raising the 
issue. I think it is interesting, and it is something that we 
can also keep our eye on, as we serve on more than one 
subcommittee, and try to work it out.
    Let me ask about a few things.
    Mr. Secretary, as I am listening to Members ask you all a 
wide variety of questions, the question occurs to me about 
setting priorities within this wide portfolio.
    The intelligence community has a priorities framework, kind 
of a matrix on what is more important for collection purposes 
and what is less important for collection purposes, to help 
prioritize. When somebody comes up with a suggestion, you see 
where it is on the matrix and how high a priority it may be.
    Is there something like that that you use or that the S&T 
community uses to help prioritize where money goes?
    Secretary Lemnios. Chairman, let me start by outlining the 
very first priority, and that is support to our troops in 
harm's way. And there is no ambiguity there at all. We look to 
our joint urgent operational needs. We hear directly from the 
combatant commanders. We visit theater. We have a direct signal 
from those in-theater to give us a clear indication of what is 
needed.
    And that is absolutely the first set of topics that we 
address. Dr. Dugan has spoken of that. My co-panelists have, as 
well. We have all had the opportunity to engage in that 
discussion and engage in those deliveries. That is job one.
    Beyond that, we have a responsibility to set the long-term 
future for the Department and for the Nation, make those bets 
in people and ideas. And, again, I will point to DARPA as one 
example. The service laboratories are another example of places 
where we make investments in people and ideas to serve our 
Nation's future.
    In that second case, in sort of the S&T piece, we have 
worked collectively over the past 6 or so months to identify 
our science and technology priorities. Those are in my 
testimony. And we have done that by looking at the future 
mission needs of the Department, taking those mission needs, 
creating a set of architectures; from each of those 
architectures, outlining what are the critical capabilities 
that we need as a department; and for each of those critical 
capabilities, what are the foundational technologies that 
support those needs.
    That allows us, then, to have a discussion with industry, 
with academia, and certainly with the services in terms of how 
we will transition those concepts.
    Now, that is an ongoing thing. There are clearly near-term 
needs that we are addressing, but we have to have the ability 
to make bets with high risk that have enormous payoff, and we 
are doing that across the board. Roughly 10 percent of our 
budget is in that very high-risk area, where not all those bets 
will pay off, but the ones that do will have a big impact. And 
I think you have seen examples of each of those.
    Mr. Thornberry. But it would be too difficult, I take it, 
to put a number, a metric, on kind of those longer-range bets 
that are not the immediate warfighter needs.
    Secretary Lemnios. I have had a challenge when people ask 
me, what is the return on investment on your S&T, your long-
term bets. We have all been in that discussion. I don't know 
what the ROI was when Steve Jobs first proposed the iPad, but I 
know what it is now for that corporation.
    Mr. Thornberry. Yeah. I am not really thinking of return on 
investment. I am thinking of the priorities or the problems you 
face. And that is an arbitrary number. I mean, that is the way 
it works in the intelligence community. It is an arbitrary 
number about the nature of the threats, but, still, they get a 
number assigned to them. And you can argue right or wrong, but 
it just helps--and that is why it occurs to me. Because it just 
seems to me a massive--a very difficult job.
    Secretary Lemnios. Let me just make one last comment to 
that.
    Mr. Thornberry. Sure.
    Secretary Lemnios. There are, sort of, two ways that we are 
doing this.
    One is, sort of, across the Department we have identified a 
set of science and technology priorities. There are seven of 
those. And we are tracking progress in each of those. We are 
roadmapping the technical progress, where we see the performer 
base and where we see transition of those ideas to theater and 
to the capabilities set.
    But we also have, beyond that, the services and certainly 
DARPA, as the engine of innovation, challenging that thinking. 
And we should challenge that thinking. There are ideas that we 
have that are part of the mainstream that we clearly have to 
implement, but we need a channel that, sort of, disrupts all of 
that.
    And that starts with the computational framework that Dr. 
Dugan talked about. It then goes toward a discussion with the 
services and with industry in terms of what those ideas are. 
And it reaches into our academic environment to really 
challenge the disciplines and the training that we have for 
future leaders in that S&T community.
    So I think we are actually doing that. The challenge is, it 
is not a simple, bounded problem. And the interesting problems 
are the ones that, in fact, aren't simple and bounded. And we 
are in that space in many ways.
    Mr. Thornberry. Well, and I think, from my point of view at 
least, we want to encourage you to take some of those long 
bets, and we want to encourage that unconventional thinking and 
approach that comes. That is very important.
    I have a number of other questions, but let me yield to 
other Members.
    The gentleman from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    As we noted in our first subcommittee hearing only just 2 
weeks ago, cybersecurity is quickly becoming a major challenge 
for our military and our Nation.
    Dr. Dugan, you and I have spoken about this in my office. 
And, certainly, I appreciated your comments in your opening 
statement about our efforts to stop cyber attacks, which are 
divergent from the threat and are taking us on a path of 
spending that is unsustainable in the long term. And, 
obviously, this challenge requires a new way of thinking about 
cybersecurity and learning to look at risks to our government.
    So I would like to begin with you, Dr. Dugan, if I could, 
but then open up the question to our panel, and ask, what work 
is being done to change how we think about cybersecurity? And 
what is being done to better identify and mitigate our risks?
    And if I could--and then I will have another question, if I 
could, on some other issues. But let's start with that, if I 
could.
    Dr. Dugan. Okay. So I would like to describe three programs 
that I think characterize how far we are reaching with respect 
to our cyber activities. The first is a program named PROCEED.
    About 1\1/2\ years ago, a researcher named Craig Gentry 
produced what we call a theoretical construction for fully 
homomorphic encryption. Now, what does that mean? Homomorphic 
encryption is the ability to compute on encrypted data without 
decrypting it.
    Now, were we to be successful in this, it would 
tremendously change the risk profile of how we conduct 
computations in areas where we have untrusted systems or 
systems of unknown provenance. That is the good news; we have a 
theoretical construction. The bad news is that it is not yet 
practical.
    So, in the first instantiation of fully homomorphic 
encryption, researchers performed a simple ``and'' function. 
And that simple ``and'' function took about 30 minutes. Using 
conventional systems, that same function would take a fraction 
of a nanosecond. So we are 14 orders of magnitude away in terms 
of our speed.
    The PROCEED program at DARPA is devoted to changing that 
timeline. It is a very big reach, from a research perspective.
    Another example is a program called CRASH, which seeks to 
develop cybersecurity technologies that rethink the basic 
hardware and software designs. It is modeled after the human 
immune system, which has two components: an innate system, 
which is fast and deadly against a series of known pathogens; 
and an adaptive system, which is slower and recognizes novel 
pathogens. The result for us as humans is resiliency and 
survivability as a species.
    And if we are able to achieve comparable types of effects 
in computer designs, then we can radically change this attack 
profile for the adversary. Essentially, what we are doing then 
is flipping the asymmetry by making each computer look a little 
different, just as our immune systems are a little different, 
and therefore much more difficult to attack. What we are doing 
under CRASH is trying to create survival of the cyber species.
    The last example I would like to leave you with is a 
program called CINDER, which is focused on the insider threat. 
It is based on a mission profile rather than the detection of a 
series of events, single intrusion detections. The idea there 
is that, when an insider means harm to a system, they conduct a 
series of events that are strung together in a mission, and 
that, by looking for those mission profiles, we might better be 
able to detect them with a lower false alarm.
    Our overall cyber program is 100 percent increased over 
fiscal year 2011. And, as many of you know, we have additional 
funds coming in through the budget request over the FYDP to the 
tune of about $500 million, starting with $50 million and 
increasing $25 million each year thereafter.
    We have recruited an expert team. They come from the 
``white hat'' hacker community, they come from industry, they 
come from a variety of sources. And we are serious about the 
big reach for us in cyber.
    Mr. Langevin. Very good. Thank you, Dr. Dugan.
    Others, comment on this issue?
    Secretary Lemnios. Let me extend Dr. Dugan's comments.
    From a Department perspective, one of the seven S&T 
priority areas is, in fact, the cyber science and technology. 
It is one that we recognized and we tied directly to the 
existing and the future missions of the Department. In fact, 
that is a key element of the architectures that we have done 
the analysis on.
    Over the FYDP, in the President's budget request fiscal 
year 2012 and out, that is about a $1.6 billion investment 
request in 6.1 through 6.3. So it is not small.
    But the real issue is, where are the ideas and where are 
the people, and how do we test those ideas? And so, a good part 
of our work currently is to look broadly at, what are the 
architectural constructs? How do we think about how do we 
evaluate and test the insider threat, which is the most vicious 
of all? And how would we transition those concepts to 
operational use?
    I will tell you that, in the last six months, I have been 
out at Pacific Command--in fact, I will be there this weekend--
for testing that is going on right there in a testbed that they 
have put in place to not only test new concepts but understand 
how those concepts apply to Pacific Fleet and to the 
operational command, how would we actually use these concepts 
to protect our networks and our communication portals in real-
time.
    Access to testbeds like that that allow the contractor 
community to see real data and to work in a combatant 
commander's environment without compromising the operational 
needs but working real-time with a user to evaluate new 
concepts is absolutely critical.
    So, in fact, there is an architectural piece to this that 
is absolutely important. There is the disruptive piece that is 
being funded out of DARPA that is absolutely essential. And 
then there is, how do we protect the existing networks and 
existing concepts that we have in place.
    Secretary Lynn, in fact, in his Foreign Affairs article 
late last year, outlined a five-tier strategy for that, and I 
would point you in that direction.
    But this is a place where the Department's investments in 
science and technology we have ramped up. The budget request is 
certainly reflective of that. And that is something that has to 
be in place over the next several years.
    Admiral Carr. Cyber is a high priority for all the 
services, of course. I would just add that, in the Navy, we are 
careful not to take it in isolation. We have to consider it in 
the context of the other dimensions of warfare. We really can't 
think just about having a cyber game or a cyber solution; how 
do we fight across the dimensions of kinetic, hyperspectral, 
and cyber.
    We have recently stood up--the CNO [Chief of Naval 
Operations] has designated a deputy CNO for information 
dominance, Admiral Dorsett. And we have stood up the 10th 
Fleet. Those are our primary customers for resources, 
requirements, and operations.
    And I would just add that, when it comes to the 
epidemiological model, there may be some application there, of 
course, but you have to remember these are like bugs that have 
brains. They are thinking adversaries. So they are not just 
bacteria. And so, we are working on how maybe better to model 
that, working with some FFRDCs [Federally Funded Research and 
Development Centers]. And there is some particularly good 
capability up at Carnegie-Mellon, has been very forward-
leaning.
    Dr. Walker. On the Air Force S&T side, we are looking at 
something we call cyber agility, which is having the network or 
the system of networks move, not being at an IP [internet 
protocol] address longer than a fraction of a second, so it is 
very hard for the attacker to find out where you are.
    We are also working cybersecurity issues for cloud 
computing, as we move into that world. You know, how do we 
secure our data in the cloud.
    And I will just mention, many of our projects are joint 
with DARPA up at Rome, New York, where our AFRL information 
directorate is located.
    Dr. Freeman. And, you know, I came out--one of my previous 
lives, I worked in the old nuclear community. And one of the 
things that we did when we were working in that community was, 
if you designed something, you also did what we called the 
countermeasures and then the counter-countermeasures and then 
the counter-counter-countermeasures, which was, you figured out 
in the design what you needed to do in order to be ahead of 
whoever was going to be tampering with whatever it was that you 
were designing.
    And one of the things that I am trying to do is, as we look 
at our C3 [command, control, and communications] portfolio, I 
am going to be challenging our science and engineers to do a 
lot more of that kind of thinking, as opposed to just designing 
things and then, you know, kind of saying, ``Okay, here it 
is,'' and then let somebody else go figure out and not know how 
easy or difficult it might be to attack.
    Mr. Langevin. Very good.
    I want to thank you all for your input on this topic. 
Obviously, it is a growing challenge to our national security. 
And the cyber threat obviously is, as you well recognize and we 
talked about, is an evolving threat. It is very challenging to 
stay one step ahead of the bad guys. I am glad to hear that you 
are all thinking outside the box, which is exactly what we 
expect you will do. And it sounds like you are on some very 
interesting work. And I look forward to continuing to monitor 
it and to work with you on the subject.
    With that, thank you, Mr. Chairman. I yield back. I will 
have some other questions for the record, by the way, but time 
constraints.
    Mr. Thornberry. I thank the gentleman, and I appreciate his 
questions.
    Mr. Gibson, do you have other questions?
    Mr. Gibson. Yeah, thanks, Mr. Chairman.
    For Admiral Carr, is the Navy doing anything on research 
for nuclear reprocessing?
    Admiral Carr. The Navy's organization that handles all 
things nuclear is NAVSEA 08, under a four-star admiral who is 
double-hatted in the Department of Energy. So it is a very old, 
tried, trusted structure. So we don't touch things nuclear, 
with the exception of looking at peripheral technologies that 
might help.
    So the short answer is, no, sir. We are not doing anything 
in that area.
    Mr. Gibson. How about for anybody on the panel on that?
    Okay, thanks.
    I yield back.
    Mr. Thornberry. Ms. Sanchez, do you have other questions?
    Mr. West.
    Mr. West. Yes, I just had one other follow-up question.
    Last week, I had the opportunity to go down and get an ops 
intel briefing from U.S. Southern Command. And one of the 
things, when we talk about emerging threats, are these mini-
submersibles that are very, very hard to detect.
    And are we looking at, you know, new technologies to 
understand who may be developing these and how we come up with 
countermeasures as far as tracking them? Because right now, the 
ISR [intelligence, surveillance, and reconnaissance] platforms 
we have, you know, it is very difficult for them to track these 
systems.
    Thank you.
    Secretary Lemnios. Congressman, we have been following that 
activity from the semi-submersibles to the recent incident 
about 2 weeks ago. We have a program through our Rapid Reaction 
Technology Office that has both evaluated the threat, has 
postulated where that might go, and is starting to put in 
place, I will just say, concepts to track future threats.
    We have worked closely--I have been down at SOCOM [Special 
Operations Command] twice. I have been down at JIATF [Joint 
Interagency Task Force]-South twice and, in fact, worked with 
the commander there to understand what the future of that AOR 
[area of responsibility] looks like.
    We have put in place, in fact, a test campaign that started 
two years ago in Key West--and we have now done two of these--
to both collect littoral data and share that with the 
contractor community to build detection schemes and 
discrimination schemes to allow us to more rapidly detect 
threats like that.
    So we are absolutely on top of that. In fact, not only at 
SOCOM, but--not only at SOUTHCOM [United States Southern 
Command], but also as part of JIATF-South and SOCOM, we are 
exploring that.
    Mr. West. Thank you very much, sir.
    And, Mr. Chairman, I yield back.
    Mr. Thornberry. Thank you.
    Mr. Gibson's question raises a question in my mind. This 
morning, we had Secretary of the Navy, CNO in front of the full 
committee; lots of questions about alternative energy sources 
and so forth.
    Mr. Secretary, using that as an example, I am sure all of 
the services, and certainly DARPA, are doing research into 
alternative energy, because of its obvious importance that we 
all know. How do you coordinate something like that?
    Because it would seem to me, the temptation would be for 
everybody to be pursuing these various alternatives, but, yet, 
you know, part of the sensitivity--story today about how many 
duplicative Federal programs there are in a whole variety of 
domestic areas.
    It is good to have competing ideas pursuing research, and 
yet the budget that we face--so you understand the gives and 
takes here that we are, kind of, looking at. And so, using 
energy as an example, how do you figure out what is 
duplicative, what is needed, and so forth?
    Secretary Lemnios. Chairman, let me echo, as well, that 
duplicative research is actually not a bad thing. Competing 
research is actually a very good thing, because it challenges 
our thinking.
    Duplicative procurement is something quite different. So, 
on the S&T piece, getting competing concepts on the table in a 
fair-game exchange in a shootout for what works and what 
doesn't and understanding what that trade space is is the game 
that you see in front of you. And we are in that space, in many 
areas.
    It is interesting that the energy issue came up this 
morning. In fact, I was at ARPA-E [Advanced Research Projects 
Agency-Energy] yesterday giving a talk. And Secretary Mabus 
will be there on Wednesday announcing a collaboration that the 
Department of Defense and the Department of Energy has to 
develop concepts really across the board.
    I would sort of answer the question, though, in terms of 
how do we structure our investments in two areas. There are S&T 
concepts that are sort of unitary concepts, and we have a 
number of those that you have seen. Many of those have paid 
great dividends, and they are starting to find their way into 
the acquisition system. Batteries are just one example. High-
efficiency solar cells are yet another example--a terrific 
opportunity for the private sector to actually drive in an area 
where the Department needs that capability.
    But there is, in fact, a much bigger issue, and that is the 
system implementation of how do we go from storage to use and 
really the full concept of how we would implement an energy-
efficient, end-to-end solution.
    Much of the alternative fuel program is now centered not so 
much on the ideas but on getting the price down of a producible 
alternative fuel system that could be brought to market. In 
fact, those programs are pretty far along. They are very far 
along technically, but it is now the issue of how do we build a 
business case and work with the private sector to commercialize 
the early S&T concepts.
    So I think you are seeing lots of cases where the 
Department has recognized the need for alternative fuels and 
reduction in power and energy storage to meet our needs. Ground 
combat vehicles are a great example of this. The Navy's fleets 
are another good example of this. And it goes on and on. But, 
at this point, it really is sort of driving the cost down from 
first use to implementation.
    Admiral Carr. I would just add, very quickly, that we do 
collaborate, and particularly with the Air Force and working 
with aircraft technologies to get fuel efficiency up. We are 
collaborating on the development of an engine that is a high/
low bypass engine. It used to be, you could either go 
supersonic efficiently or slow like an airliner efficiently. We 
would like to develop an engine that does both. Higher 
temperature, of course, means more efficiency, so we are 
collaborating on some turbine blade coatings and development.
    There are things that are uniquely naval. Particularly, 
underwater UUV [unmanned underwater vehicle] technology is sort 
of a niche. But I think we try hard to collaborate where it 
makes sense and look within for those special niches where we 
have them.
    For Marines, power and energy just means make me lighter; 
give me juice, but don't make me carry so much weight--lighter 
batteries, photovoltaics, things that will generate power. And 
you can recover energy just from walking.
    So I think we are a little unique because we have aircraft, 
ground-pounders, and ships and vehicles.
    Mr. Thornberry. Okay. Good.
    Dr. Dugan, let me ask this, with Mr. Langevin's questions 
on cyber, and you talked about several of the initiatives that 
DARPA has in cyber. I suspect that Dell and HP [Hewlett-
Packard] are also working, kind of, next-generation computing 
that could be more secure because that would be a product that 
they could sell.
    My question is, in making your decisions on which products 
to pursue, how do you factor in what private industry is doing 
on its own and ensure that you are supplemental rather than 
something that in some way distorts the market or replaces what 
they are doing on their own?
    Dr. Dugan. Yeah, it is a very good question. I would tell 
you that the program managers at DARPA are experts in their 
field. They are very often very closely coupled with their 
colleagues and experts in private industry and in other--and in 
academe, as an example.
    The clean-slate initiatives that we are investigating are 
perhaps the ones that touch most closely on your question. So 
the traditional impediment for investigating clean-slate 
initiatives, new designs, whole new designs for operating 
systems or computing systems, is often limited by challenges 
against the feasibility of employing them economically.
    So one of the things that we began to look at is exactly 
the opportunity for insertion for new technology, such as 
clean-slate design as articulated under CRASH. And what we 
observed is that, by 2012, the purchase of smart phones, as an 
example, will exceed the purchase of laptop and desktop 
computers combined. Therein lies an opportunity to insert new 
technology that is consistent with the business models and the 
economic aims of many of those in private industry.
    We are actively engaged with them. They are part of our 
research projects. And so I feel that that close coupling is 
healthy at DARPA.
    Mr. Thornberry. Mr. Secretary, let me broaden the question 
a little bit. How do you maintain visibility in what the 
private sector is doing, in order to integrate not only across 
those of you who are there but into those efforts?
    Secretary Lemnios. Well, first of all, many of us came from 
the private sector and we have a remarkable Rolodex. The hours 
and the salary changed, but the Rolodex didn't. And so, in 
fact, it is critically important that we maintain that 
coupling.
    I think you would find, every one of us spends a lot of 
time engaging with industry, whether it is conferences, whether 
it is on a study panel. I know that in cyber, for example, 
early last year when we wanted to sort of get ground truth of 
what was happening in the private sector, we brought people in. 
We convened a study that included leading universities and 
leading companies to come in and tell us, what are your leading 
ideas that you are supporting?
    So it really is a full-time engagement. And this is really 
across our--I would echo Dr. Dugan's point that her program 
managers are best in class. We pull them from industry. After a 
few years, you send them back, and they have made a great 
contribution to the Nation.
    Mr. Thornberry. What effect, if any, does the lack of a 
long-term reauthorization on the Small Business Innovative 
Research Program have on your ability to do strategic planning 
and integration of those efforts into core S&T programs?
    Secretary Lemnios. Chairman, let me start with that. As you 
and I have talked, that is a particular concern of ours, of 
mine. We deal with the small-business community all the time.
    And I will give you one specific example. There is a 
program that we are funding in the LA [Los Angeles] area to 
build an airship, and we are working with a small company, and 
we are simply metering out payments to this company. It is a 
30-member company, and they are sort of hanging by a thread. So 
we can't do long-range planning without a budget in place, and 
it puts those companies at risk.
    The same was true with a small company that I saw on the 
eastern shore of Maryland that is building force protection 
equipment for our troops. It is simply a matter of scaling it 
out. It is like building a house, and instead of building it on 
the cost and architect's budget and timeline that you would 
like, you sort of stretch it out, and it is going to cost more.
    So there is an unpaid bill that is a result of this, and it 
is adding enormous risk to our small-business community.
    Mr. Thornberry. Dr. Freeman, this may not be fair, but I 
have the idea that a lot of medical research that is done at 
the Department of Defense has a tenuous connection to the 
warfighter or even our service people. A lot of it has been 
foisted upon the Department by Congress.
    Now, I don't know if that is--but it does occur to me that, 
as budgets tighten and as we have these extremely serious, 
urgent issues like Mr. Gibson was asking about, that we might 
have to adjust our priorities a little bit. And some of these 
things in the field of medical research that the Department has 
been doing may need to take a lower priority.
    Do you have any comment about that?
    Dr. Freeman. You bring up a tremendously important issue 
for us, you know, and it has several aspects, right? I mean, 
one of them is the Medical Research Command has gotten a 
tremendous amount of adds over the years, earmarks over the 
years. And, in fact, they had to stand up--in order to handle 
the very large volume of those, they had to stand up an 
organization basically to handle all of that.
    And, of course, we have some issues as we remain on a 
continuing resolution, if we do, that basically, you know, in 
2011 we are okay because we are continuing to operate those 
particular programs and execute those programs from past adds. 
However, as we move to 2012, we are going to have to seriously 
consider what we do there.
    So one of them is the infrastructure that that has caused 
in our medical community, and so we have to deal with that. But 
we are dealing with that, and the commander and I are dealing 
with that.
    The second issue that you bring, however, is the, you know, 
what I would call, kind of, just a huge smattering of a variety 
of topics that have been funded over time, some in the program 
but mostly in the non-core budget. And I have mixed feelings 
about those. I really do.
    The first thing is that, you know, a lot of those things 
that don't seem, maybe, on the surface to be really, really 
beneficial to our service men and women actually are. Breast 
cancer is a huge issue for not only the women of this country--
I am a breast cancer survivor, so I am very glad all that 
research was there--but also for our females in the military. 
And so, you know, even though that may not have been intended 
entirely for the military, it has had a great benefit, as have 
many of those kinds of efforts.
    On the other hand, you are absolutely right. We are going 
to have to tighten our belt, take a look--and you mentioned the 
word ``priorities.'' I mentioned the word ``priorities'' in my 
testimony. And I think we are going to have to look at that, 
and we are going to have to look at that hard.
    What I will tell you is that we do have to maintain a very 
broad look at all of the different kinds of medical research 
that need to be done. And so, as we look at what we are doing, 
we have to look in many different ways. We have to look at 
treatment, we have to look at prevention, we have to look at 
vaccines. We have to look at an awful lot of those things which 
do really help our service men and women. Some of those 
historic things will go away, as we take a hard look at those 
things. Some of those things we will have to continue.
    One of the big issues that we have by not being able to 
move things out of the medical research in a very fast manner 
is the approval process for drugs and so on and so forth, 
which, of course, stymies an awful lot of--as we go through--
and we want to be sure we are absolutely doing the right thing, 
but that takes it a long time to get the things that can be 
beneficial out to our warfighters.
    So I think you bring up a really good point, and I would 
love to discuss it further with you.
    Mr. Thornberry. Well, I guess--yeah. I would, too. And I 
appreciate the points you make, but we can't duplicate NIH [the 
National Institutes of Health] at DOD, so--I appreciate it.
    Dr. Walker, you mentioned in your statement some upgrade, 
kind of, research on missiles and so forth. I am thinking about 
our strategic triad and so forth. Do you all have anything 
going on, though, as far as--and maybe this would not be S&T in 
these accounts--but as far as replacements?
    What sort of work is the Air Force doing as far as missile 
technology goes? You look around the world, and there are lots 
of missiles that a lot of people have. Are we doing the kind of 
research we need to understand that and possibly have our own 
improved systems if we choose to?
    Dr. Walker. Great question. We are heavily invested in the 
Air Force S&T Program in propulsion and guidance technologies 
for Minuteman III-type replacement strategic systems. We, in 
particular, are looking at advanced inertial measurement unit 
guidance packages for denied GPS environments and applying 
those to strategic systems, as well as looking at solid 
propellant S&T work out at our Edwards facility to, among other 
things, maintain that industrial base that is so critical to 
the Nation and look at next-generation-type ICBM 
[intercontinental ballistic missile] systems.
    It is interesting you ask the question. I came from DARPA, 
actually, as well. And DARPA and the Air Force are working a 
program looking at conventional strategic systems, a technology 
program. And the Air Force piece of that is looking at the 
DARPA design for that boost-glide vehicle system and looking at 
how we would use that to strike targets from a strategic 
standpoint. So, actually, we are tied at the hip on that 
program.
    And, you know, conventional strike, at this point, it is a 
technology look, but it is important, I think, for future 
options in our strategic systems.
    Thank you.
    Mr. Thornberry. I think so, too. I think it is important to 
have future options beyond our current system.
    Mr. Langevin, do you have other questions?
    Mr. Langevin. No, thank you.
    Mr. Thornberry. Mr. Gibson, do you have other questions?
    Mr. Gibson. No.
    Mr. Thornberry. Well, I think you all wore us out.
    I suspect there will be other questions that we would 
submit for the record.
    But, again, I appreciate each of you being here today. I 
appreciate your patience while we had votes, and appreciate the 
work that you and your organizations do.
    With that, the hearing stands adjourned.
    [Whereupon, at 5:25 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 1, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 1, 2011

=======================================================================


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 1, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MS. SANCHEZ

    Dr. Freeman. The Military Photomedicine Program (formerly the 
Medical Free Electron Laser program) is currently funded out of the 
Defense Health Program line 0602115HP, and executed by the Air Force 
Office of Scientific Research. I understand the President's Budget 
Request for Fiscal Year 2012 includes $4.8 million for this effort. 
[See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 1, 2011

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. As the Department's Chief Technology Officer it is 
imperative that your office understand not only of the technological 
capabilities and challenges across the Department but those 
capabilities and challenges in the private sector that directly impact 
the DOD and warfighter. What methods, specifically, does your office 
utilize to build awareness of and assess the security & integrity of 
critical technologies in the private sector?
    Secretary Lemnios. As outlined in DOD Directive 5134.3, the 
Assistant Secretary of Defense (Research and Engineering) (ASD(R&E)) 
serves as the Chief Technology Officer for the Department of Defense 
and is responsible for ``developing strategies and supporting plans 
that exploit technology and prototypes to respond to the needs of the 
Department of Defense and ensure U.S. technological superiority.'' Key 
to this responsibility is understanding the capabilities that reside in 
the private sector and how those could be accessed and leveraged to 
directly support the Department and warfighter.
    At the technology level, the Department engages broadly with 
industry through the Small Business Innovation Research Program, 
contracted research programs, service laboratory engagements and 
participation in subject matter conferences.
    At the systems level, the Department's Trusted Defense Systems 
Strategy, delivered to Congress in January 2010, outlines a strategic 
interaction with industry as one of the four major tenets of this 
strategy. These include:
    <bullet>  Object Management Group's (OMG) Software Assurance 
Special Interest Group (SwA SIG), which extended the Knowledge Data 
Model (KDM) to software assurance;
    <bullet>  DHS Software Assurance Program, which works with the 
private sector, academia, and federal entities, including my office, to 
encourage and enable software developers to focus on quality and 
security throughout the development lifecycle;
    <bullet>  National Defense Industrial Association's (NDIA) System 
Assurance Committee, which developed the ``Engineering for System 
Assurance Guidebook;
    <bullet>  The Open Group's Trusted Technology Forum, which is 
releasing a global framework, guidelines, procurement strategies and 
related resources to enable the technology industry to ``build with 
integrity'' and enable customers to ``buy with confidence'';
    <bullet>  Information Communication Technology--Supply Chain Risk 
Management (ICT-SCRM) Ad-Hoc Working Group, under the American National 
Standards Institute's (ANSI) CyberSecurity-1 (CS1), is leveraging a 
wide range of industry participants' inputs on SCRM-related 
``commercially acceptable global sourcing standards'' to form national 
positions in support of the International Standards Organization 
community; and
    <bullet>  International Council on Systems Engineering (INCOSE) 
System Security Engineering Working Group, which is developing design 
concepts, system engineering processes, standards, and community 
awareness for next generation system security.
    The Department's Science and Technology Executive Committee (S&T 
EXCOM), chaired by ASD(R&E), provides a forum to integrate awareness of 
emerging private sector technical capabilities across the Department 
and accelerate their connection to the Department's needs.
    Mr. Thornberry. As you are aware, over the past two decades several 
critical defense technologies have moved off-shore leaving the 
Department of Defense dependent on foreign competitors for key defense 
components and systems. What technological capabilities and/or specific 
technology areas are you most concerned about losing to off-shore 
interests over the next five to ten years?
    Secretary Lemnios. Technology globalization has enabled many 
nations to access leading-edge technologies where the United States 
historically has enjoyed a dominant role. The Defense Production Act 
(DPA) of 1950 provides authority to reduce U.S. dependency on foreign 
sources for critical materials and technologies essential for national 
defense.
    In the last 10 years, the DPA has funded domestic investments in 46 
essential defense technologies including gallium nitride 
semiconductors, carbon nanotube fibers, continuous filament boron fiber 
and high-purity beryllium. The total investment over the past 10 years 
has been $677.22 million.
    In particular, the DPA, Title III effort is focused on establishing 
production capabilities that are self-sustaining. Contractors are 
encouraged to focus on business planning, marketing and improvements in 
production capabilities. The combination of strengthened production 
capabilities and increased marketing efforts helps ensure the financial 
viability of critical industrial capabilities.
    Looking ahead, I am most concerned that international markets are 
driving leading edge semiconductors, advanced materials, high 
efficiency battery technology and manufacturing tools off shore. In 
each of these areas, the Department is working across the Government to 
assess the national security impact, identify the enabling technical 
concepts, and outline a viable business model for Defense Production 
Act investment.
    One of the tools available to the Government to assess the risk to 
these critical industrial sectors and recommend mitigation measures is 
the Defense Production Act Committee (DPAC). The 2009 amendments to the 
DPA created the DPAC, and comprises approximately 14 federal agencies. 
The role of the DPAC is to conduct assessments of the U.S. industrial 
base to identify risks within supply-chains deemed essential to U.S. 
national security and critical infrastructure, and prescribe means for 
mitigating the risks identified. The DPAC utilizes an inter-agency 
process, which conducts assessments to identify manufacturing 
activities requiring support. These assessments include analysis of 
supply-chains; emerging technology developments/applications; 
components' criticality, importance/reliability of sources; and 
appropriate access to capital to support urgent national requirements. 
The assessments also include recommendations for mitigating risks 
identified in the course of those assessments.
    Mr. Thornberry. What specific steps are you undertaking to provide 
timely due diligence for determining if a private sector company has 
resident key defense technology and what steps are you undertaking to 
ensure that these technologies stay in country and available for DOD 
programs?
    Secretary Lemnios. In DOD, the primary responsibility for ensuring 
that domestically-created technologies are appropriately export-
controlled lies with the Defense Technology Security Administration 
(DTSA). DTSA administers the development and implementation of DOD 
technology security policies on international transfers of defense-
related goods, services, and technologies. It ensures that critical 
U.S. military technological advantages are preserved. DTSA operates in 
close coordination with the Department of State, which has lead 
responsibility in the U.S. Government for licensing export of defense 
articles and defense services.
    In addition, my office works closely with the Deputy Assistant 
Secretary of Defense (Manufacturing and Industrial Base Policy) to 
analyze potential mergers and acquisitions of U.S. firms by foreign 
interests. These analyses are provided to the Treasury Department-
chaired Committee on Foreign Investment in the United States, which 
determines whether the transition of private sector companies and their 
technologies to foreign ownership would impair the national security of 
the United States. Each year, my office typically provides technical 
assessments for several dozen such cases.
    Mr. Thornberry. In addition to activities that were devolved to the 
Services, what other contributions did the S&T community make, if any, 
to the Secretary's efficiency initiative?
    Secretary Lemnios and Dr. Dugan. In response to the Department's 
direction to identify efficiencies, DARPA identified the first four 
items listed below. In addition, we were directed, per the 14 Mar, 2011 
Secretary of Defense Memo Titled, ``Track Four Efficiency Initiatives 
Decisions'', to implement item five below.
    1. Reduce contractor service support in Information Technology and 
administration from 7.5% of overall budget to less than 5.4% by FY13. 
This recommendation has no estimated savings in personnel and an 
estimated FYDP savings of $58,300,000.
    2. Reduce advisory studies and boards funding by 25%, by FY12 and 
develop a schedule to periodically review those technology advisory 
boards, studies, and councils that are established for specific 
functions to determine if they have served their purpose and, if so, 
disband them as early as possible. This recommendation has no estimated 
savings in personnel and an estimated savings of $1,300,000 FYDP 
savings.
    3. Automate historically cumbersome and manual administrative 
processes to improve productivity, quality, and create efficiencies. 
There is an estimated FY12 savings of $295,000.
    4. Expand use of the Savannah classified network workstation. 
Expanding Savannah to support DARPA's multiple network processing of 
classified information and supporting network connectivity via a single 
workstation will eliminate the need for multiple classified systems and 
minimize requirements for the physical handling of classified material. 
There are no estimated savings in personnel and an estimated FY12 
savings of $4,400,000.
    5. Reduce DARPA Total Obligation Authority across the FYDP by 5% to 
better align its budget with obligation rate targets. DARPA's five-year 
average annual obligation rate of 63%, with an improved FY10 annual 
obligation rate of 84% still allows a 5% reduction with minimal impact 
to overall quality of effort and mission execution. Annual rescissions 
have been common and have influenced annual obligation rates in a 
positive direction; without rescissions, DARPA's obligation rates would 
have been measurably lower, further mitigating the risk of a 5% 
reduction. There are no estimated savings in personnel and an estimated 
FY12 savings of $153,000,000.
    Mr. Thornberry. In addition to activities that were devolved to the 
Services, what other contributions did the S&T community make, if any, 
to the Secretary's efficiency initiative?
    Dr. Freeman. As part of the Secretary of Defense's efficiency 
initiative, Army S&T funding was increased by $65 million for Indirect 
Fire Protection Capability research in Fiscal Years (FY) 2012-2014 and 
reduced by $79 million in FY 2014-2016 for contractor and manpower 
efficiencies.
    Mr. Thornberry. In addition to activities that were devolved to the 
Services, what other contributions did the S&T community make, if any, 
to the Secretary's efficiency initiative?
    Admiral Carr. The science and technology (S&T) community complied 
with the Secretary of Defense's direction to reduce reliance on service 
contractor support by 30 percent over three years. The savings 
identified by this efficiency reduction were then realigned from 
contractor support to true S&T investment, also in accordance with the 
secretary's direction. Additional S&T efficiencies were identified, 
some of which were tied to in-sourcing contractors and detailees to 
government civilian positions. The non-S&T portion of the Office of 
Naval Research's portfolio sustained similar efficiency reductions, 
including reducing civilian manpower levels back to the Fiscal Year 
2010 levels.
    Mr. Thornberry. In addition to activities that were devolved to the 
Services, what other contributions did the S&T community make, if any, 
to the Secretary's efficiency initiative?
    Dr. Walker. In response to the Secretary's efficiency initiative, 
the Air Force Research Laboratory was tasked to identify almost $150 
million in efficiencies from within the Air Force S&T Program starting 
in Fiscal Year 2013 and spanning the Future Years Defense Program. The 
resultant savings are to be reinvested back into S&T program content. 
Examples of efficiencies may include reductions in headquarters staff, 
travel, and laboratory logistics costs, as well as integration of core 
technical competencies and strategic planning functions across some 
technical directorates. The plan is for savings to be reinvested into 
S&T efforts supporting Flagship Capability Concepts, Technology 
Horizons, and other priorities. In addition, efficiency savings 
garnered from the Basic Research program are to be reinvested back into 
Basic Research efforts.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. Like the health of the technology workforce, the 
health of the DOD laboratories and research centers is a critical 
concern for the acquisition community. These facilities provide key 
research capabilities for the DOD, both in terms of concentrations of 
skilled technicians as well as necessary instrumentation. Labs also 
serve as a key indicator for the technology workforce that can be used 
to attract high quality researchers. Unfortunately, the poor state of 
much of the lab infrastructure in DOD can also serve to dispel many of 
the technology workforce that DOD would most like to attract into the 
technical staff of the labs.
    1. How well do you think DOD labs compare to academic or industrial 
labs, in terms of the quality of their output and the quality of their 
infrastructure?
    2. Do you believe that the DOD labs are aligned to meet the future 
technology needs of the Department?
    3. What value do the labs provide for the DOD?
    Secretary Lemnios. 1. I have personally visited many of the 
Department's laboratories and have found an extremely diversified 
mixture of superb talent, world-class facilities hampered by obsolete 
buildings and equipment. The Department's laboratories are an important 
part of the Department's Science and Technology (S&T) enterprise, which 
in addition to its laboratories, comprises industry, academia, 
federally funded research and development centers, and university 
affiliated research centers.
    The Department's laboratories represent a unique conduit with 
industry to transfer the knowledge gained from our basic research 
investments into capabilities for our warfighters. Given the dynamic 
global and domestic research and development landscape that exists 
today, we are undertaking a systematic assessment to ensure the 
Department's laboratories are successful in the future in three areas:
    a. Recruitment of top talent not only for traditional S&T areas but 
also in emerging new science areas which hold the potential for 
important new capabilities.
    b. Access to suitable facilities which support the Department's 
core critical capabilities.
    c. Development of effective and efficient business processes that 
provide value to the Department's missions and priorities, including 
processes to accelerate capabilities for the current war and prepare 
for an uncertain future.
    2. We are working diligently to better align the capabilities and 
projects in the Department's laboratories to the future technology 
needs of the Department. The first important step in this process was 
outlining the Department's S&T emphasis areas which provide warfighters 
cross-cutting capabilities for the missions identified in the 
Quadrennial Defense Review. We have also identified emerging science 
areas that hold the promise for fundamentally new capabilities in the 
future.
    3. The Department's laboratories provide captive technical depth in 
critical areas for the Department and a conduit to the emerging 
technical concepts in academia and industry. In many cases, our 
laboratory programs lead industry in critical areas that are too high 
risk for industry investment (advanced materials, dynamic propulsion, 
energetic). In other areas, our laboratories couple industry concepts 
to the needs of the warfighter (blast protection and intelligence 
surveillance and reconnaissance (ISR)). The laboratories' subject 
matter experts in mission critical areas provide the Department with 
early access to emerging concepts and rapid adaptability to the field.
    Mr. Langevin. The 2010 Joint Operating Environment Report from 
Joint Forces Command warns that a global energy crunch driven by ``Peak 
Oil,'' the point at which global oil production enters terminal decline 
and demand therefore more rapidly outstrips supply, may cause 
international conflict, force deep cuts in U.S. defense spending, and 
undermine our economic growth. Do you concur with this assessment?
    Secretary Lemnios and Dr. Dugan. DARPA defers to ASD (R&E) to 
discuss ``Peak Oil'' because of their broad S&T perspective to include 
the Services.
    Mr. Langevin. Dr. Walker I wanted to ask about the high energy 
laser program that Secretary Lemnios recently moved to the Air Force's 
jurisdiction. How does the Department plan on executing the program?
    Dr. Walker. The three High Energy Laser (HEL) Joint Technology 
Office (JTO) program elements were devolved to the Air Force in Fiscal 
Year 2004. After the devolvement, a Memorandum of Agreement (MOA) was 
signed between the Office of the Secretary of Defense (OSD), the 
Military Services, and relevant Defense Agency Science and Technology 
(S&T) Executives. This MOA defines the HEL JTO management structure and 
the specific roles/responsibilities of OSD, the Military Services, and 
Defense Agencies. The HEL Technology Council, made up of these S&T 
Executives, provides technical oversight of the program executed by the 
HEL JTO. The Air Force provides administrative support to the program 
including development of the descriptive summaries and funds 
management. No HEL programs have been moved to the Air Force since 
2004.
    Mr. Langevin. Do you see any potential challenges with this move?
    Dr. Walker. No. The management structure for the three High Energy 
Laser (HEL) Joint Technology Office (JTO) programs has been in place 
since these programs were devolved to the Air Force in Fiscal Year 2004 
and is working well.
    Mr. Langevin. Recent news articles have reported that DARPA was in 
the initial stages of considering a militarized stand alone cloud 
architecture along with the establishment of mobile wireless hotspots 
to beam data to/from troops in difficult to access areas.
    Dr. Dugan. DARPA is investing in research and development of 
technologies that will bring secure high-data-rate capabilities to 
troops in difficult areas.
    One potential technology is using optical beams as a transmission 
medium. This potentially counters the adversary's ability to intercept, 
spoof, or exploit data transmitted from one warfighter to another. In 
addition, Millimeter Wave (MMV) or secure Radio Frequency waveforms may 
provide additional secure transmission capabilities in unsecure and 
rapidly-changing environments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. As you know, this committee has been very active with 
pushing the Department to improve its efforts to rapidly transition 
innovative technology. On page two of your written testimony, you state 
that the Department operates 10 Federally Funded Research and 
Development Centers, 13 University Affiliated Research Centers and 10 
Information Analysis Centers that provide innovative paths for rapid 
prototyping. Could you briefly explain how the UARCs and IACs each 
provide paths for accelerating technologies? Please list and describe 
recent examples of technologies that were accelerated into fielding, a 
program of record, or commercial markets as a direct result of their 
efforts?
    Secretary Lemnios. Our University Affiliated Research Centers 
(UARC) drive mission-specific research with deep connections to the 
academic community. These centers provide the Department with focused 
technical depth in critical mission areas. The Department's UARCs are 
as follows:
    1. University of California at Santa Barbara: Institute for 
Collaborative Biotechnologies
    2. University of Southern California: Institute for Creative 
Technologies
    3. Georgia Institute of Technology: Georgia Tech Research Institute
    4. Massachusetts Institute of Technology: Institute for Soldier 
Nanotechnologies
    5. University of Texas at Austin: Institute for Advanced Technology
    6. Utah State University: Space Dynamics Laboratory
    7. Johns Hopkins University: Applied Physics Laboratory
    8. Pennsylvania State University: Applied Research Laboratory
    9. University of Texas at Austin: Applied Research Laboratories
    10. University of Washington: Applied Physics Laboratory
    11. University of Hawaii at Manoa: Applied Research Laboratory
    12. University of Maryland, College Park: Center for Advanced Study 
of Language
    13. Stevens Institute of Technology: Systems Engineering Research 
Center
    UARCs provide capability to fill the intersection between 
universities and defense labs in specific narrowly defined areas. The 
following provide examples of technologies that were accelerated into 
fielding through two of our UARCs.
    <bullet>  A high resolution imaging sonar developed by the 
University of Texas at Austin Applied Research Laboratories UARC to 
provide enhanced capability for diver reconnaissance in shallow water 
and harbor environments. The SEAL Handheld Sonar is part of the program 
of record for U.S. Navy Explosive Ordnance Disposal and Naval Special 
Warfare, and it is incorporated in the Underwater Imaging System and 
the Hydro Reconnaissance and Littoral Mine Detection System.
    <bullet>  The Cooperative Engagement Capability (CEC) was proposed 
in the 1980s by the Johns Hopkins University Applied Physics Laboratory 
(JHU APL) UARC, and subsequently developed by JHU APL and industry in 
the 1990s and beyond as a program of record. CEC allows naval battle 
groups to engage targets that are at greatly extended ranges beyond a 
ship's radar horizon and targets that were previously considered 
difficult to detect and track. CEC serves as a major enabler of a 
single integrated air picture and provides the fleet with the defensive 
flexibility required to confront the evolving threat of anti-ship 
cruise and theater ballistic missiles.
    Our Information Analysis Centers (IACs) provide tactical relevance 
through direct connection to the Warfighter, and strategic value 
through long term trend analysis and recommendations. They answer an 
immediate need, driven by the requirements of the Warfighter and 
acquisition community. Products such as State-of-the-Art Reports 
provide a detailed analysis of immediate, critical challenges, while 
technical inquiry services offer a direct connection to a vast network 
of Subject Matter Experts from across government, industry and 
academia. IACs meet the customers on their ground, maintaining 
involvement in technical communities and working with senior executives 
to solve the challenges of the day, while anticipating and preparing 
for those of tomorrow. The Department's IACs are as follows:
    1. Advanced Materials, Manufacturing, and Testing Information 
Analysis Center (AMMTIAC)
    2. Chemical, Biological, Radiological and Nuclear Defense 
Information Analysis Center (CBRNIAC)
    3. Chemical Propulsion Information Analysis Center (CPIAC)
    4. Data & Analysis Center for Software (DACS)
    5. Information Assurance Technology Analysis Center (IATAC)
    6. Modeling and Simulation Information Analysis Center (MSIAC)
    7. Reliability Information Analysis Center (RIAC)
    8. Military Sensing Information Analysis Center (SENSIAC)
    9. Survivability/Vulnerability Information Analysis Center 
(SURVIAC)
    10. Weapon Systems Technology Information Analysis Center (WSTIAC),
    IACs do not conduct research but rather focus information analysis 
and results in specific domains. IACs facilitate transition by being 
on-call capabilities to focus information support-specific transition 
efforts as a tangible resource. These analysis centers are part of the 
Department's comprehensive information portal that is hosted at the 
Defense Technical Information Center (DTIC). As a measure of 
effectiveness, the ten analysis centers answered over 7,000 requests in 
Fiscal Year 2010 from across the Department on time critical issues 
ranging from assessing the risk of chemical terrorism to engineering 
resilient systems (supporting our Systems 2020 effort).
    Ms. Sanchez. What is the recapitalization rate for your defense 
laboratory infrastructures?
    Dr. Freeman. While we do not have the specific recapitalization 
rate for Army labs and RDECs, the laboratory recap rate for the 
Department of Defense Labs is approximately 70 years.
    Ms. Sanchez. Where do the labs fall in priority with the rest of 
defense MILCON needs?
    Dr. Freeman. The Services prioritize their MILCON needs against all 
current requirements with the laboratory recapitalization being 
considered along with the needs for airfields, barracks, hospitals, 
etc. Laboratory requests usually end up below the cut line.
    Ms. Sanchez. What efforts would you recommend implementing to begin 
to meet lab MILCON needs in a fiscally responsible manner?
    Dr. Freeman. As I mentioned, I am undertaking a comprehensive 
review of the state of the Army labs and Research, Development and 
Engineering Centers, both in terms of physical infrastructure and human 
capital. Once that review is complete, I intend to take the results and 
prioritize our needs across the entire Army lab complex.
    Additionally, the Defense Laboratory Office within the Office of 
the Assistant Secretary of Defense for Research and Engineering 
(ASD(R&E)) is developing a two part metric which will measure building 
quality and building functionality for DOD laboratories. These metrics 
can be incorporated into our review to help us further understand our 
needs and how to address them in a fiscally responsible way.
    Ms. Sanchez. How do your lab recap rates and investment levels for 
lab facilities and equipment compare with the DOE labs, private sector 
labs, and major university labs?
    Dr. Freeman. Army S&T has no comparative data on any other 
facilities.
    Ms. Sanchez. What are the potential negative impacts to lab mission 
and warfighter support of the deterioration of our lab infrastructure?
    Dr. Freeman. Operations and Maintenance costs will continue to 
increase for certain older facilities which are needed to execute 
programs. Deterioration of infrastructure is an impediment to 
conducting world-class scientific research and engineering. Recruiting 
of new talent could be impacted as young Scientists and Engineers might 
prefer to work in a well maintained and equipped facility rather than 
one that is deteriorating. Repair and upkeep tasks are distractions to 
the workforce and prevent them concentrating on their scientific and 
technical work.
    Ms. Sanchez. What is the recapitalization rate for your defense 
laboratory infrastructures?
    Admiral Carr. The rate at which the facilities of the Naval 
Research Laboratory (NRL) are being replaced by new MILCON is about 700 
years, a significant increase from the pre-1990's rate of about 100 
years. This greatly exceeds the DON/DOD target of 67 years.
    In the 10 years prior to the realignment of the MILCON process in 
1993, five ONR/NRL MILCON projects were programmed. In the 18 years 
since 1993, three projects have been programmed.
    The average age of NRL-DC facilities is 57 years. Declining annual 
MILCON investments are driving this situation: $12.1 M in the 1960's 
down to $1.0 M in the 2000's.
    Ms. Sanchez. Where do the labs fall in priority with the rest of 
defense MILCON needs?
    Admiral Carr. The needs of research and development do not fare 
well in direct competition with operational requirements, especially 
under a period of conflict that imposes heavy burden on the shore 
infrastructure that directly supports warfighting (piers, runways, 
etc). There are no Naval Research Lab MILCON projects remaining in the 
President's Budget Request for the fiscal year 2012 Future Years 
Defense Plan.
    Of the twelve objective shore capability areas in the Navy MILCON 
scoring model, RDT&E is ninth on the list, behind Waterfront Ops, 
Airfield Ops, Utilities, and Training, and above Sailor and Family 
Readiness, Base Support, and Logistics & Supply.
    Ms. Sanchez. What efforts would you recommend implementing to begin 
to meet lab MILCON needs in a fiscally responsible manner?
    Admiral Carr. In 2008, the Naval Research Laboratory (NRL) 
completed a Corporate Facilities Investment Plan that provides 
strategic direction for the expenditure of laboratory overhead and 
MILCON funds to renovate spaces to meet evolving R&D needs in the 10-15 
year time frame. Primarily through its investment of overhead funds, 
NRL has been able to maintain its status as a world-class laboratory. 
This approach cannot be sustained in the long term. The following two 
proposals are offered:
    (1) Establish a separate budget line to fund R&D MILCON needs.
    Funding levels should sustain a rate of replacement that meets the 
needs of naval research so that Naval Research can best meet the needs 
of the Navy and Marine Corps. This can be done by establishing a 
separate budget line for RDT&E projects. This would prevent continued 
deferment of RDT&E projects while maintaining competition between the 
RDT&E projects each year to ensure that only valid and well-justified 
projects are funded.
    (2) Allow Working Capital Fund laboratories to manage their own 
Capital Investment Program (CIP) for infrastructure revitalization.
    The CIP allows the use of ``internal'' (vice specific appropriated) 
funds to revitalize infrastructure. However, CIP authority is subject 
to administrative, budgetary, and statutory limitation for the purposes 
of dollar amount and fiscal year of availability. Legislation would be 
required to change this situation, but there are precedents for doing 
so. For example, the Postal Service and St. Lawrence Seaway Development 
Corporation use similar (or overhead) funds generated from sales to 
acquire, construct, and maintain their own facilities and property.
    Ms. Sanchez. How do your lab recap rates and investment levels for 
lab facilities and equipment compare with the DOE labs, private sector 
labs, and major university labs?
    Admiral Carr. Recent information allowing comparisons across these 
different communities is scarce. However, a DOD study in 1990 (prior to 
the change in the Navy's MILCON process) found the average age of DOD 
laboratory buildings was 33 years, compared to 22 years for all 
Government buildings and 17 for industrial R&D centers. In addition, 55 
percent of all DOD R&D facilities were more than 40 years old, and the 
replacement cycle for the DOD R&D physical plant was over 100 years 
compared with 18 years for industrial R&D facilities.\1\
---------------------------------------------------------------------------
    \1\ DOD Defense Management Review, ``Report of the Laboratory 
Demonstration Program Facilities Working Group on the DOD R&D Activity 
Facilities Modernization Requirements,'' 4 May 1990.
---------------------------------------------------------------------------
    Now, 21 years later, the average age of NRL-DC facilities is 57 
years.
    Ms. Sanchez. What are the potential negative impacts to lab mission 
and warfighter support of the deterioration of our lab infrastructure?
    Admiral Carr. The Naval Research Laboratory (NRL) conducts some of 
the most advanced research in the world, which depends on state-of-the-
art, costly, high-precision equipment and facilities. Deterioration of 
facilities hinders the recruitment and retention of a high quality 
workforce, causes millions of dollars in damage to laboratories and 
equipment, and results in many months of delays to critical research 
projects while laboratories are restored. At a certain point, this 
deterioration of infrastructure can jeopardize the viability of NRL, 
which would in turn bear high costs to national security by limiting, 
degrading, or preventing the conduct of research and development 
required to meet the needs of the warfighter--NRL's core mission 
responsibility.
    State-of-the-art facilities have been a major factor in forging 
NRL's record of achievement. In 2005, the Navy League's New York 
Council awarded NRL the Roosevelt's Gold Medal for Science, noting 
that, ``NRL has helped make the U.S. Fleet the most formidable naval 
fighting force in the world'' and calling it ``the Government's premier 
defense research laboratory.'' In observing NRL's 75th anniversary in 
1998, Norman Augustine said, ``I know from experience that there are 
few other institutions--public or private--which have had a greater 
impact on American life in the 20th century, both in terms of military 
needs and civilian uses.'' And John Galvin said, ``NRL is the 
equivalent of the most significant technology jewel in our country.''
    However, the needs of long-term research do not fare well in direct 
competition with operational requirements. In short, they are 
considered deferrable, especially in a time of financial constraints. 
Successful innovation can save money and reduce total ownership cost. 
For example, NRL's corrosion control coatings reduced a three-coat 
painting process to a single-coat process and reduced total production 
time by more than 80%. The Navy estimates this will save $1.8 B over a 
20-year period.
    Ms. Sanchez. What is the recapitalization rate for your defense 
laboratory infrastructures?
    Dr. Walker. Recapitalization rates are no longer applicable for 
defense laboratory infrastructure to include the Air Force Research 
Laboratory. In Fiscal Year 2010, the Office of the Secretary of Defense 
(OSD) changed from calculating recapitalization rates in years to 
calculating this as a percent investment against the OSD Facility 
Modernization Model done only at the Service level (i.e., 
recapitalization rates are no longer calculated for Major Commands, 
installations, or separate agencies).
    Ms. Sanchez. Where do the labs fall in priority with the rest of 
defense Military Construction (MILCON) needs?
    Dr. Walker. Air Force Research Laboratory (AFRL) inputs for MILCON 
funding are vetted each year and prioritized in conjunction with other 
Air Force requirements. In Fiscal Year 2007, AFRL's parent Major 
Command, the Air Force Materiel Command, implemented a new planning 
prioritization process for laboratory MILCON requirements. This process 
provides the AFRL Commander the ability to submit laboratory MILCON 
requests directly to the Command MILCON Panel. Previously, AFRL MILCON 
requests were submitted through the individual bases or centers where 
AFRL tenant facilities were located. As direct inputs under this new 
process, AFRL MILCON requirements have received higher prioritization 
leading to a greater likelihood for approval and funding than when 
previously prioritized against other base or center needs. This, 
coupled with the advantages and synergy of AFRL operating as a single 
laboratory, enables AFRL to better manage its infrastructure to include 
being a stronger advocate for its MILCON requirements. For those inputs 
not currently funded, AFRL will continue to clarify requirements to 
enable projects to better compete in future deliberations.
    Ms. Sanchez. What efforts would you recommend implementing to begin 
to meet lab Military Construction (MILCON) needs in a fiscally 
responsible manner?
    Dr. Walker. The Air Force Research Laboratory (AFRL) currently 
utilizes MILCON authorities provided by Congress in Title 10, United 
States Code, Section 2804, Contingency Construction, and Section 2805, 
Unspecified Minor Construction. In the case of Section 2805, this 
authority is currently set to expire on September 30, 2012. Extension 
of this authority is recommended as it enables AFRL to construct needed 
facilities in support of emerging technologies and to correct 
deficiencies that could be life-threatening, health-threatening, or 
safety-threatening.
    Ms. Sanchez. How do your lab recap rates and investment levels for 
lab facilities and equipment compare with the Department of Energy 
(DOE) labs, private sector labs, and major university labs?
    Dr. Walker. The Air Force Research Laboratory (AFRL) does not track 
or generally have access to the recapitalization rates and facilities/
equipment investment levels for DOE, private sector, and major 
university labs. In addition, as of Fiscal Year 2010, recapitalization 
rates are no longer applicable for defense laboratory infrastructure to 
include AFRL.
    Ms. Sanchez. What are the potential negative impacts to lab mission 
and warfighter support of the deterioration of our lab infrastructure?
    Dr. Walker. Existing Air Force Research Laboratory (AFRL) 
infrastructure is basically sound and there are no significant barriers 
that disproportionally impact Science and Technology (S&T) facilities 
on any given base. In those cases where limited installation 
Sustainment, Restoration, and Modernization funds are not available for 
laboratory requirements due to other competing priorities, S&T funding 
can be and is used to fund these requirements if the impact of not 
funding them is deemed significant. S&T funds will only be used if the 
work is in direct support of the S&T mission in accordance with 
guidance established in Air Force Instruction 65-601, Volume 1, dated 
March 3, 2005, Section 13B--Funding to Acquire Research and Development 
(R&D) Facilities and Install R&D Equipment. In those cases where new or 
unique laboratory facilities requiring Military Construction (MILCON) 
funding might be needed, the development of new technologies to support 
the warfighter could potentially be delayed if these facilities are not 
funded. However, this factor is taken into account as AFRL needs are 
prioritized against other Air Force needs during the MILCON 
prioritization process.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. JOHNSON
    Mr. Johnson. Please explain why the OSD HBCU/MI Program was 
devolved to the Army and how that change promotes efficiency if the 
budget request is unchanged?
    Secretary Lemnios. The Secretary's Fiscal Year 2012-2016 efficiency 
initiatives focused on a reform agenda to improve the Department's 
business operations. Specifically, the Secretary directed a series of 
initiatives designed to reduce duplication, overhead, and excess, and 
instill a culture of savings and restraint across the Department of 
Defense.
    The Office of the Secretary of Defense (OSD) Historically Black 
Colleges and Universities and Minority Institutions (HBCU/MI) Program 
was devolved to the Army as an efficiency measure and to streamline 
program execution currently being performed by the Army. OSD Assistant 
Secretary of Defense (Research and Engineering) will continue to 
provide strategic leadership of the HBCU/MI program. This devolvement 
will reduce transaction costs for the daily financial management and 
administration of the HBCU/MI budget. While the anticipated annual 
savings to the Department is $75,000 which is modest, this will align 
the program execution to the Military Department that is performing the 
work.
    This action met the intent of the Secretary's efficiency objectives 
for identifying a more cost effective and streamlined business 
processes.
    Mr. Johnson. Please explain how devolving this program and other 
programs devolved from OSD under the FY 2012 budget request saves 
dollars for the Department and why these programs were selected for 
devolution versus other programs in ASD(R&E) that were not devolved and 
remain in OSD?
    Secretary Lemnios. The Secretary's FY 12-16 efficiency initiatives 
focused on a reform agenda to improve the Department's business 
operations. Specifically, the Secretary directed a series of 
initiatives designed to reduce duplication, overhead, and excess, and 
instill a culture of savings and restraint across the Department of 
Defense.
    The OSD Historically Black Colleges and Universities and Minority 
Institutions (HBCU/MI) Program was devolved to the Army as an 
efficiency measure and to streamline program execution currently being 
performed by the Army. OSD ASD(R&E) will continue to provide strategic 
leadership of the HBCU/MI program. This devolvement will reduce 
transaction costs for the daily financial management and administration 
of the HBCU/MI budget. While the anticipated annual savings to the 
Department is $75,000 which is modest, this will align the program 
execution to the Military Department that is performing the work.
    The criteria used to select devolved programs, to include the OSD 
HBCU/MI program, consisted of:
    1) Programs where OSD ASD(R&E) transfers full program funding (via 
sub-allocation) directly to a Component for program execution,
    2) Identifying areas for improving and streamlining the financial 
management and administration processes of select programs, and
    3) Identifying potential cost savings associated with streamlined 
business processes of select programs.
    This action met the intent of the Secretary's efficiency objectives 
for identifying a more cost effective and streamlined business 
processes.
    Mr. Johnson. In your written testimony you mention that your 
strategy for science, technology, engineering and mathematics (STEM) 
outreach includes developing a diverse talent base. Divesting yourself 
of the leadership responsibility for the HBCU/MI funding stream seems 
counter to that objective. What were your selection criteria or 
justification in transferring the OSD HBCU/MI Program and divesting 
yourself of the leadership responsibility, commitment, and visibility 
that is the OSD ASD(R&E) role under 10 U.S.C. 2362?
    Secretary Lemnios. The Secretary's FY 12-16 efficiency initiatives 
focused on a reform agenda to improve the Department's business 
operations. Specifically, the Secretary directed a series of 
initiatives designed to reduce duplication, overhead, and excess, and 
instill a culture of savings and restraint across the Department of 
Defense.
    The OSD HBCU/MI Program was devolved to the Army as an efficiency 
measure and to streamline program execution currently being performed 
by the Army. OSD ASD(R&E) will continue to provide strategic leadership 
of the HBCU/MI program. This devolvement will reduce transaction costs 
for the daily financial management and administration of the HBCU/MI 
budget. While the anticipated annual savings to the Department is 
$75,000 which is modest, this will align the program execution to the 
Military Department that is performing the work.
    The criteria used to select devolved programs, to include the OSD 
HBCU/MI program, consisted of:
    4) Programs where OSD ASD(R&E) transfers full program funding (via 
sub-allocation) directly to a Component for program execution,
    5) Identifying areas for improving and streamlining the financial 
management and administration processes of select programs, and
    6) Identifying potential cost savings associated with streamlined 
business processes of select programs.
    The OSD ASD(R&E) and Deputy Assistant Secretary of the Army for 
Research and Technology are both committed to ensure the HBCU/MI 
strategic program goals and objectives are achieved.
    Mr. Johnson. Can you assure the committee that no funds for the 
HBCU/MI in the Future Years Defense Program will be reprogrammed or 
transferred for other purposes?
    Secretary Lemnios. The Deputy Assistant Secretary of the Army for 
Research and Technology and I are both committed to ensure the HBCU/MI 
program's strategic goals and objectives are achieved. Funds available 
for the HBCU/MI program will be executed with this intent. We are 
committed to preserving the HBCU/MI program funding identified in the 
Department's Future Years Defense Program.
    Mr. Johnson. As consumers of the Test and Evaluation (T&E) within 
the DOD, do you see the T&E infrastructure keep up with the demands of 
S&T? Are there capability gaps in the T&E community, in terms of 
infrastructure and trained personnel that hinder the ability of the S&T 
community to transition programs?
    Dr. Freeman. S&T does not generally require extensive use of T&E 
infrastructure or personnel in its efforts and as such I am not aware 
of any capability gaps that currently exist, nor am I aware of any 
current issues with T&E infrastructure shortfalls hindering S&T 
transitions. It is possible that future integrated technology 
demonstrations may require selective upgrades of T&E infrastructure and 
equipment, but that would have to be determined on a case by case 
basis.
    Mr. Johnson. As consumers of the Test and Evaluation (T&E) within 
the DOD, do you see the T&E infrastructure keep up with the demands of 
S&T? Are there capability gaps in the T&E community, in terms of 
infrastructure and trained personnel that hinder the ability of the S&T 
community to transition programs?
    Admiral Carr. As part of the Department of Defense Reliance 
Process, the T&E community engages the science and technology community 
to identify evolving technologies and the capability to test them using 
existing infrastructure, or to indentify gaps that require investment 
to allow adequate transition of those technologies. Currently there are 
no identified gaps requiring near term investment, but there are 
technologies such as lasers, hypersonic and autonomous vehicles that 
are being evaluated to assess current T&E infrastructure to test these 
technologies.
    Mr. Johnson. As consumers of the Test and Evaluation (T&E) within 
the DOD, do you see the T&E infrastructure keeping up with the demands 
of Science and Technology (S&T)? Are there capability gaps in the T&E 
community, in terms of infrastructure and trained personnel that hinder 
the ability of the S&T community to transition programs?
    Dr. Walker. Generally, T&E infrastructure, including trained T&E 
personnel, meets the demands of S&T. For example, our wind tunnel 
testing infrastructure is sufficient to meet the demands of emerging 
``technology-enabled capabilities.'' One exception to this in the 
future may be in the area of hypersonics. Our ability to test 
hypersonic propulsion systems is barely adequate. Specifically, we 
cannot test full mission profiles in a single test facility with 
correct dynamic pressures and temperatures at this time. However, we 
are planning to develop a full mission profile capability over the next 
several years. Similarly, our ability to perform broad electro-
magnetic, full system testing on our national flight test ranges, to 
include testing of net-centric operations, is currently constrained. 
This is mainly due to encroachment of surrounding communities on our 
national test ranges, constraining our ability test our full 
performance capabilities in flight.
    Mr. Johnson. As consumers of the Test and Evaluation (T&E) within 
the DOD, do you see the T&E infrastructure keep up with the demands of 
S&T? Are there capability gaps in the T&E community, in terms of 
infrastructure and trained personnel that hinder the ability of the S&T 
community to transition programs?
    Dr. Dugan. DARPA finds that the infrastructure and experience of 
the personnel generally are sufficient to meet our T&E requirements.
    While transitioning programs have not been severely limited by T&E 
capabilities, there are some capability gaps that concern us. The 
courses of action or implications for addressing these gaps have been 
evaluated against other priorities or means for achieving the desired 
outcome.
    1. Hypersonic Test Facilities. DOD T&E and NASA leadership have 
indicated that the wind tunnel complex at White Oak, MD and similar 
NASA hypersonic test facilities are scheduled to be mothballed as part 
of efficiency and cost saving measures. Similarly, our other existing 
test range facilities are in large part antiquated and not suited for 
long range hypersonic testing.
    2. Urban Operations. The evaluation of Intelligence, Surveillance & 
Reconnaissance (ISR) and other types of surveillance technologies in an 
urban environment is hampered by the lack of an existing facility.
    3. Integrated airspace for Unmanned Air Systems testing. Unmanned 
Air Systems (UAS) require coordination and approval from the Federal 
Aviation Administration to operate outside of protected airspace. With 
the growth in UAS across the DOD, scheduling time to perform T&E within 
protected airspace is becoming more challenging.
    4. Cyber Testing. The ability to test cyber technologies is limited 
in that for any specific test, significant resources are required to 
build out, configure, and restore a range that can properly emulate the 
desired operational environment and security classification level(s) 
for that test.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
